<html>
<title> - THE GRADES ARE IN!</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 THE GRADES ARE IN!--IS THE DEPARTMENT OF HOMELAND SECURITY MEASURING 
                                  UP? 

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2007

                               __________

                           Serial No. 110-70

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-965 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (ii)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    28
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    27
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    22
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    30
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    34
  Prepared Statement.............................................    35
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    24
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    19

                               WITNESSES

The Honorable Paul A. Schneider, Under Secretary, Management, 
  Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
The Honorable David M. Walker, Comptroller General of the United 
  States, Government Accountability Office.......................     6

                             FOR THE RECORD

Material submitted by Hon. Mike Rogers:
  Congressional Committee Oversight of DHS chart.................     5

                               APPENDIXES

I.  Congressional Committee Oversight of DHS.....................    39
II.  Additional Questions and Responses:
      Responses from Hon. Paul A. Schneider......................    43
      Responses from Hon. David M. Walker........................    53


 THE GRADES ARE IN!--IS THE DEPARTMENT OF HOMELAND SECURITY MEASURING 
                                  UP?

                              ----------                              


                      Tuesday, September 18, 2007

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 3:41 p.m., in Room 
311, Cannon House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, Lowey, 
Jackson Lee, Etheridge, Langevin, Cuellar, Clarke, Green, 
Rogers, and Dent.
    Chairman Thompson. [Presiding.] The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony from 
Comptroller General David M. Walker of the Government 
Accountability Office and Mr. Paul A. Schneider, Undersecretary 
for Management at the Department of Homeland Security, 
regarding GAO's assessment of the Department of Homeland 
Security's efforts over the past 4 years.
    I have an opening statement that I would like to read. I 
would like to welcome our two witnesses to the panel today. We 
look forward to both of your testimonies.
    I would like to share with the members of the committee and 
the audience that, as you know, on September 6, 2007, a day 
after the House Committee on Homeland Security held a hearing 
examining Secretary Chertoff's record at the Department of 
Homeland Security, GAO publicly released its report assessing 
the department's progress over the past 4 years.
    GAO examined legislation, homeland security presidential 
directives and DHS and component agency strategic plans. GAO 
assessed the department's performance based on its inspector 
general's report, past GAO reports and documents provided by 
the department.
    All in all, GAO found that the key underlying themes that 
have affected the department's implementation efforts are the 
lack of strategic planning and management, risk management, 
information sharing, agency transformation, partnership 
formulation and internal and external coordination.
    Simply put, the GAO report confirmed, and I and the 
committee have suspected for a while now, that the department 
has failed to complete major projects, programs and plans 
critical to fulfilling critical homeland security missions.
    In addition to incomplete performance in several 
operational and programmatic areas, I am also troubled about 
the department's ongoing challenges in resolving critical 
personnel vacancies that exist in key decision-making 
positions.
    The GAO report is really pointing to a need for 
accountability.
    Mr. Schneider, it did not go unnoticed that the department 
chose to send you to defend 4 years record and that you have 
only been with the department for 9 months. It should be noted 
that the committee sought the attendance of Deputy Secretary 
Michael Jackson, who has been in the department since its 
inception and who serves as the department's chief operating 
officer and is responsible for managing the department's day-
to-day operation.
    Let me state emphatically that the department must not 
evade its responsibility to the American people. The leaders of 
the department should be here to account for why they have 
decided to swap the national response plan for a national 
response framework that state and local participants are still 
confused about.
    The decision-makers of the department must account for the 
300 percent cost increase of the SBInet program the department 
said would help to secure the borders against dangerous persons 
and cargo. The managers of the department should account for 
the delay in the issuance of TWIC, the transportation worker 
identification card.
    The directors of the department need to account for the 
fact that taxpayers' dollars were spent on the homeland 
security information network, a program that the department's 
inspector general found does not support information sharing 
effectively, does not fully meet user needs, and, in many 
cases, is not relied upon by state, local and tribal law 
enforcement agencies.
    Now, I understand that the department questions the 
methodology employed by GAO in compiling its assessment of DHS.
    Mr. Schneider, I am prepared to hear the department's 
concern about the GAO, but I must warn you that the 
department's failure to accomplish its responsibilities to the 
American people is hardly due to statistical manipulation.
    The fact is that at the September 5 hearing, I gave 
Secretary Chertoff a list of outstanding projects that he is to 
complete before his tenure is over at the department. When all 
the items on the list have been accomplished, then the American 
people will be able to say that we are safer now than we were 
before.
    I will close by saying, once again, that we owe the 
American people security, we owe them accountability, and, most 
importantly, we owe them freedom from fear.
    With that, I thank you for being here today and I look 
forward to your testimony.
    I would also like to now yield 5 minutes to the gentleman 
from Alabama, who is our ranking member, Mr. Rogers.

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

                           September 18, 2007

    On September 6, 2007, a day after the House Committee on Homeland 
Security held a hearing examining Secretary Chertoff's record at the 
Department of Homeland Security, GAO publicly released its report 
assessing the Department's progress over the past four (4) years.
    GAO examined legislation, Homeland Security Presidential 
Directives, and DHS and component agencies' strategic plans.
    GAO assessed the Department's performance based on its Inspector 
General's reports, past GAO reports, and documents provided by the 
Department.
    All in all, GAO found that the key underlying themes that have 
affected the Department's implementation efforts are the lack of 
strategic planning and management, risk management, information 
sharing, agency transformation, partnership formation and internal and 
external coordination.
    Simply put, the GAO report confirmed what I and this Committee have 
suspected for a while now--That is the Department has failed to 
complete major projects, programs, and plans critical to fulfilling 
critical homeland security missions.
    In addition to incomplete performance in several operational and 
programmatic areas, I am also troubled about the Department's on-going 
challenges in resolving critical personnel vacancies that exist in key 
decision-making positions.
    The GAO report is really pointing to a need for accountability.]
    Mr. Schneider, it did not go unnoticed that the Department chose to 
send you to defend the Department's chief operating officer and is 
responsible for managing the Department's day-to-day operations.
    Let me state emphatically that the Department must not evade its 
responsibility to the American people.
    The leaders of the Department should be here to account for why 
they have decided to swap the National Response Plan for a National 
Response Framework that State and local participants are still confused 
about.
    The decision makers of the Department must account for the 300 
percent cost increase of the SBInet--a program the Department said 
would help to secure the borders against dangerous persons and cargo.
    The managers of the Department should account for the delay in the 
issuance of TWIC--the transportation worker identification card.
    The directors of the Department need to account for the fact that 
taxpayer dollars were spent on the Homeland Security Information 
Network (HSIN)--a program that the Department's Inspector General found 
does not support information sharing effectively, does not fully meet 
user needs, and in many cases is not relied upon by State, local, and 
tribal law enforcement agencies.
    Now I understand that the Department questions the methodology 
employed by GAO in compiling its assessment of DHS.
    Mr. Schneider, I am prepared to hear the Department's concerns 
about the GAO but I must warn you that Department's failure to 
accomplish its responsibilities to the American people is hardly due to 
statistical manipulation.
    The fact is that at the September 5th hearing, I gave Secretary 
Chertoff a list of outstanding projects that he is to complete before 
this tenure is over at the Department.
    When all of the items on the list have been accomplished then the 
American people will be able to say that we are safer now than we were 
before.
    I will close by saying--once again--that we owe the American people 
security. We owe them accountability. And most importantly, we owe them 
freedom from fear.

    Mr. Rogers. Thank you, Mr. Chairman.
    I, too, would like to welcome Mr. Walker and Mr. Schneider 
back to the committee.
    The GAO report we will discuss today sets forth a 
comprehensive review of the progress made at DHS, as well as a 
number of challenges still facing the department. Specifically, 
the 320-page GAO report points out that, while DHS has made 
significant progress in carrying out its missions, more needs 
to be done to strengthen the management structure.
    Partially, in response, DHS has raised serious concerns 
with the methodology and performance measures GAO used to 
develop its report, but we will hear from Undersecretary 
Schneider about these concerns.
    The creation of DHS in March 2003 marked the largest 
government reorganization since the creation of the Department 
of Defense. While DHS has made great strides in integrating 22 
separate agencies, DHS officials acknowledge more work needs to 
be done.
    GAO acknowledges that successful transformations of large 
organizations, even those with less strenuous organizations 
than DHS, generally take 5 to 10 years. DHS also has undergone 
reorganizations, including the secretary's second stage review 
in 2005 and the reorganization of FEMA earlier this year.
    While Congress must actively oversee DHS, it should not 
mandate more changes that will impede the department's ability 
to complete its integration. As you can see from the chart, DHS 
also has the challenge of reporting to 86 Congressional 
committees and subcommittees because Congress has not yet 
implemented the 9/11 commission recommendations to consolidate 
jurisdictions.

 Prepared Statement of the Honorable Mike Rogers, A Representative in 
                   Congress from the State of Alabama

    Thank you, Mr. Chairman.
    Today, we welcome back to the Committee both Comptroller General 
David Walker and Under Secretary Paul Schneider.
    The Government Accountability Office report we'll discuss today 
sets forth a comprehensive review of the progress made by DHS, as well 
as a number of challenges still facing the Department.
    Specifically, the 320-page GAO report points out that while DHS had 
made significant progress in carrying out its missions, more needs to 
be done to strengthen the management structure.
    Partially in response, DHS has raised serious concerns with the 
methodology and performance measures GAO used to develop its report.
    We will hear from Under Secretary Schneider about these concerns.
    The creation of DHS in March 2003 marked the largest government 
reorganization since the creation of the Department of Defense.
    While DHS has made great strides in integrating 22 separate 
agencies, DHS officials acknowledge more work needs to be done.
    GAO acknowledges that successful transformations of large 
organizations--even those with less strenuous reorganizations than 
DHS--generally take five to seven years to achieve.
    DHS also has undergone reorganizations, including the Secretary's 
Second Stage Review in 2005, and the reorganization of FEMA earlier 
this year.
    While Congress must actively oversee DHS, it should not mandate 
more changes that will impede the Department's ability to complete its 
integration.
    DHS also has the challenge of reporting to 86 congress committees 
and subcommittees because Congress has not yet implemented the 9/11 
Commission recommendation to consolidate jurisdiction.
    Mr. Chairman, I ask Unanimous Consent to include in the Record a 
chart that shows the committees and subcommittees that currently 
oversee DHS.
    Consolidated jurisdiction would maintain strong oversight, while 
DHS strengthens its organization and carries out its missions.
    Again, I thank the witnesses for being here today, and we look 
forward to their testimony.
    Thank you, Mr. Chairman. I yield back.

    Mr. Rogers. Mr. Chairman, I ask unanimous consent to 
include in the record the chart that shows the committees and 
subcommittees that currently oversee DHS.
    Chairman Thompson. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Rogers. Consolidated jurisdiction would maintain strong 
oversight while DHS strengthens its organization and carries 
out its missions.
    Again, I want to thank the witnesses for being here today 
and look forward to their testimony.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. Other members of the committee are 
reminded that under the committee rules, opening statements may 
be submitted for the record.
    I now welcome our first witness, Mr. David Walker. Mr. 
Walker became the seventh comptroller general of the United 
States and began his 15-year term when he took his oath of 
office on November 9, 1998.
    As comptroller general, Mr. Walker is the nation's chief 
accountability officer and head of the U.S. Government 
Accountability Office, a legislative branch founded in 1921.
    GAO's mission is to help improve the performance and assure 
the accountability of the federal government for the benefit of 
the American people. Over the years, GAO has earned a 
reputation for professional, objective, fact-based and 
nonpartisan review of government issues and operations.
    Mr. Walker, I thank you for your service and I appreciate 
you agreeing to testify here today.
    Our second witness is the honorable Paul Schneider, 
Undersecretary for Management at the Department of Homeland 
Security. Prior to joining the department earlier this year, 
Undersecretary Schneider was a defense and aerospace consultant 
for 3.5 years. Before that, he was a civil servant for 38 
years, including serving as senior acquisition executive of the 
National Security Agency from October 2002 to September 2003, 
and more than 4 years as principal deputy assistant secretary 
of the Navy for research, development and acquisition.
    Thank you, Mr. Schneider, for being here today.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Walker.

 STATEMENT OF HON. DAVID M. WALKER, COMPTROLLER GENERAL OF THE 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Chairman Thompson, Ranking Member Rogers, other 
members of the Homeland Security Committee, thank you very much 
for the opportunity to be with you and to review GAO's findings 
with regard to our report that was issued earlier this month on 
the implementation, integration and transformation of 
Department of Homeland Security.
    DHS began operations in March of 2003 with a number of 
missions, which included, among other things, preventing 
terrorist attacks from occurring within the United States, 
reducing U.S. vulnerability to terrorism, minimizing the 
damages from attacks that might occur, and helping the nation 
recover from these attacks.
    The department has initiated and continued to implement a 
variety of policies and programs designed to address these 
challenges, as well as its many non-homeland security 
functions. I think it is important to note at the outset that 
thousands of DHS employees are working very hard on these and 
other challenges and we obviously appreciate their efforts.
    DHS has also taken a number of actions to integrate its 
management functions and to transform its component agencies 
into an effective and integrated cabinet department.
    However, given the size and significance of this undertaken 
and in light of the experience of Department of Defense in 
1947, GAO designated the implementation and transformation of 
the Department of Homeland Security as a high risk area and it 
continues to be high risk today.
    In designating this as a high risk area, we noted that 
building an effective department would require consistent and 
sustained leadership from top management in all key areas. And 
we also noted that successful mergers and transformations, even 
in the private sector, of large and complex organizations, can 
take 5 to 7 years to achieve and be sustained. And, quite 
candidly, in government, for a variety of reasons, it takes 
longer.
    Our report provides our assessment of DHS' progress across 
14 mission and management areas. For each area, we identified 
performance expectations based upon not our expectations, but 
the expectations of the Congress, the president of the United 
States and the secretary of homeland security.
    We worked with the inspector general of the department of 
homeland security and, also, considered our prior work. We also 
provided an opportunity for the department to be able to 
provide us with additional information, including extensive 
information after reviewing a copy of our draft report.
    DHS has raised certain concerns about our methodology. We 
are comfortable with what we did, how we did it and why we did 
it.
    At the same point in time, I also want to acknowledge that 
in a hearing that we had on the Senate side about 2 weeks ago, 
I agreed with the chairman and ranking member of Senate 
Homeland Security and Governmental Affairs that we would work 
together with DHS to come up with a modified methodology to 
evaluate DHS on a prospective basis and, in my opinion, that 
methodology should include both what the status is of these 
major efforts, as well as whether or not meaningful progress is 
being made with regard to each of these major areas, because 
after all, it is going to take years to effectively address 
some of these areas no matter what best efforts might be from 
the related parties.
    They have made varying levels of progress in implementing 
their mission and management areas since March of 2001. In 
general, DHS has made more progress in its mission areas than 
its management areas, for understandable reasons. Mission is 
what it is all about and mission is about protecting security 
and safety.
    I would note that there is a board which is noted on page 
four of my testimony, which includes the summary of our 
evaluation.
    I would also note that there are a variety of factors that 
have affected DHS' ability to implement its mission and 
management functions. These factors include both domestic and 
international events, such as Hurricanes Katrina and Rita, and 
major homeland security legislation. And the next board, which 
is on page seven of your testimony, summarizes a number of 
these major events.
    Given the leading role that DHS plays in securing the 
homeland, it is critical that the department's missions, 
programs and functions operate as efficiently and as 
effectively as possible. It has been more than 4 years since 
the department was established.
    They have made progress. More progress is necessary, but it 
is going to take time. I think it is important they be focused 
on the right things and that they be held accountable for 
making meaningful progress on a recurring basis.
    I also would note that in order for us to be able to 
effectively discharge our responsibilities to the Congress, 
that we need timely access to GAO people, documents and 
operational exercises, and, in that regard, I am pleased to 
note that just before I came to this hearing, I received a 
response to a recent letter that I sent to Secretary Chertoff 
in which he pledged to be personally engaged in making sure 
that we gain more timely access than we have in the past.
    I appreciate his willingness to set the right tone at the 
top and that is absolutely necessary in order for us to be able 
to effectively discharge our responsibilities for the Congress 
and the American people.
    Thank you, Mr. Chairman.
    [The statement of Mr. Walker follows:] \1\
---------------------------------------------------------------------------
    \1\ See GAO, Department of Homeland Security: Progress Report on 
Implementation of Mission and Management Functions, GAO-07-1240T 
(Washington, D.C.): September 18, 2007.
---------------------------------------------------------------------------
    Chairman Thompson. Thank you very much.
    We will now ask Mr. Schneider to summarize his statement 
for 5 minutes.

   STATEMENT OF PAUL SCHNEIDER, UNDER SECRETARY MANAGEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schneider. Thank you, Mr. Chairman, Representative 
Rogers, and members of the committee. It is a pleasure to 
appear before you today.
    Without question, the most significant challenge we face at 
DHS is to continue to transform the department into a unified 
force that protects our country. Although the department has 
faced numerous challenges during the first 4 years of this 
critical undertaking, we have made great progress.
    GAO largely recognizes this progress across 14 mission and 
management areas. In fact, GAO concluded that the department 
has generally achieved 78 performance expectations.
    This is particularly noteworthy given GAO's recognition 
that, in many cases, there was no anticipation that the 
department would achieve the performance expectations by the 
end of our 4th year.
    Also of importance is the GAO recognition that their 
assessments of progress do not reflect nor are they intended to 
reflect the extent to which DHS' actions have made the nation 
more secure in each area.
    Although the department takes issue with the methodology 
and rating system employed by GAO, there can be no dispute that 
GAO's positive assessments of generally achieved reflect the 
department's significant progress in the four major mission 
areas.
    I think it is worth noting that many of the areas where GAO 
rightly recognized the department's progress were those 
critical areas we chose to focus our resources to secure the 
homeland. While we were pleased that GAO recognized our 
progress, the department continues to believe that GAO used the 
flawed methodology in preparing its report, which resulted in 
many of the assessments not fully reflecting the department's 
progress.
    We are particularly concerned that the report is based on 
vague, shifting criteria and standards that result in an ``A or 
fail'' grading system does not properly credit DHS for on track 
implementation of long term multiyear goals or constantly 
evolving programs, that it is subjective and does not normalize 
the audit standard amongst analysts to ensure consistent 
assessments across the 171 performance expectations, and does 
not consistently account for issues outside DHS' control.
    In late May 2007, GAO officials submitted a revised 
statement of facts that the department's progress would now be 
rated as generally achieved or generally not achieved rather 
than generally addressed or generally not addressed.
    Although their reply to our comments suggest that this was 
merely a change in language rather than substance, the 
practical differences between these standards are significant, 
reflecting, at a minimum, a difference in how the performance 
expectations would be perceived.
    ``Addressed'' suggests that a program is on track, whereas 
``achieved'' indicates final completion. Our view is that GAO 
went from a pass-fail to an A-fail grading system without 
explaining why. In our view, this is like moving the goalpost 
after the game has started.
    Based on this new standard, GAO downgraded its assessments 
of the department, the 28 performance expectations, to 
generally not achieved.
    We are also concerned with the binary achieved-not achieved 
standard. We believe it is ill equipped to evaluate the 
department's progress accurately in a multiyear endeavor.
    In closure, my letter to the GAO dated 20 July 2007, which 
has been included in the GAO report, and my testimony, 
highlights in detail a discussion of some of these problematic 
assessments.
    Moving forward, we will build upon the department's recent 
program developments and successes, while dedicating ourselves 
to continuous improvement.
    I personally look forward to maintaining the cooperative 
approach with the GAO that was followed in preparing this 
report and, as the comptroller general indicated, based on our 
hearing with Senator Lieberman, we are in the process of 
starting to work together to establish criteria for subsequent 
evaluation that is mutually agreed to by both parties.
    I would also like to thank the Congress and especially this 
committee for your leadership and for your continued support of 
the Department of Homeland Security.
    I am happy to answer any questions that you may have.
    [The statement of Mr. Schneider follows:]

Prepared Statement of the Honorable Paul A. Schneider, Under Secretary 
          for Management, U.S. Department of Homeland Security

    Thank you Mr. Chairman, Representative King and members of the 
Committee. It is a pleasure to appear before you today.
    I am here today to discuss where the Department of Homeland 
Security (DHS) stands after its first four years--both its successes 
and where more work is needed. In particular, I am here to discuss the 
recent Government Accountability Office (GAO) report entitled 
Department of Homeland Security, Progress Report on Implementation of 
Mission and Management Functions (GAO Report).
    I want to say at the outset that we are very appreciative of the 
frank and open communication with GAO that has been established during 
recent months, especially during the final stages of GAO's work on this 
report. In this regard we are especially appreciative of the efforts of 
the Comptroller General, Mr. Norman Rabkin, Managing Director, Homeland 
Security and Justice, and their team for their professionalism, 
courtesy and cooperation. We look forward to building on and continuing 
this cooperative approach. We also appreciate the opportunity that we 
were given to review and provide comments on the earlier draft report 
submitted by GAO.
    As you know, this report looks at DHS' first four years, although 
GAO has observed that ``successful transformations of large 
organizations, even those faced with less strenuous reorganizations 
than DHS, can take at least five to seven years to achieve.'' We 
appreciate GAO's acknowledgement of the challenges the Department faces 
and recognition of the progress we have made in the past four years. 
Without question, the most significant challenge we face at DHS is to 
continue to transform the Department into a unified force that protects 
our country. DHS, whose size is comparable to a Fortune 50 company, has 
been an entrepreneurial start-up effort that, at the same time, has 
been required to merge 22 agencies with approximately 209,000 employees 
into one.
    GAO itself has referred to this project as an ``enormous management 
challenge,'' and in regards to the size, complexity and importance of 
our efforts, as ``daunting.''
    Although the Department has faced numerous challenges during the 
first four years of this daunting--and critical--undertaking, we have 
made great progress. The GAO Report largely recognizes this progress 
across 14 mission and management areas. In fact, GAO concluded that the 
Department has ``Generally Achieved'' 78 performance expectations, 
despite GAO's recognition that in many cases it had not expected that 
the Department could achieve the performance expectations by the end of 
our fourth year. In other areas, GAO also recognizes the Department's 
ongoing programs but nevertheless concludes that the progress to date 
warrants a different assessment of ``Generally Not Achieved''.
    Although the Department takes issue with the methodology and rating 
system employed by GAO, there can be no dispute that GAO's positive 
assessments in 78 performance expectations reflect the Department's 
significant progress in four major mission areas, including: (1) 
securing modes of transportation, (2) securing the border and 
administering the immigration system, (3) defending against, preparing 
for, and responding to threats and disasters, and (4) implementing 
management functions.
    Securing modes of transportation. The Department has implemented a 
strategic approach for aviation security functions. In order to make 
air travel more secure, the Department has hired and deployed a federal 
screening workforce as well as federal air marshals on high-risk 
flights, and developed and implemented procedures for physically 
screening passengers and air cargo. The GAO Report also recognizes the 
Department's progress in developing and testing checkpoint technologies 
and deploying explosive detection systems and explosive trace detection 
systems to screen checked baggage. The Department has also established 
policies and procedures to ensure that individuals known to pose, or 
suspected of posing, a risk or threat to security, are identified and 
subjected to an appropriate action.
    In the area of maritime security, GAO recognizes the Department's 
development of national plans for maritime security, and progress in 
developing a vessel-tracking system to improve awareness on vessels in 
U.S. waters, ensuring port facilities have completed vulnerability 
assessments and developed security plans; and developing a system for 
screening and inspecting cargo for illegal contraband.
    Securing the border and administering the immigration system. The 
Department has implemented a biometric entry system to prevent 
unauthorized border crossers from entering the United States through 
ports of entry and is developing a program to detect and identify 
illegal border crossings between ports of entry. We have also developed 
a strategy to detect and interdict illegal flows of cargo, drugs, and 
other items into the United States. In the area of immigration 
enforcement, the Department has developed a program to ensure the 
timely identification and removal of noncriminal aliens as well as a 
comprehensive strategy to interdict and prevent the trafficking and 
smuggling of aliens into the United States. We have also developed a 
prioritized worksite enforcement strategy to ensure that only 
authorized workers are employed. In order to provide better immigration 
services, the Department has established revised immigration 
application fees based on a comprehensive fee study and has created an 
office to reduce immigration benefit fraud.
    Defending against, preparing for, and responding to threats and 
disasters. In order to satisfy our mission of being prepared for and 
responding to future threats and disasters, whether they are along the 
lines of the September 11, 2001 terrorist attacks or Hurricanes Katrina 
and Rita, the Department has developed a national incident management 
system and a comprehensive national plan for critical infrastructure 
protection. The Department has identified and assessed threats and 
vulnerabilities for critical infrastructure and has supported efforts 
to reduce those threats and vulnerabilities. The GAO Report also 
recognizes the Department's progress in coordinating and sharing 
homeland security technologies with federal, state, local, tribal and 
private sector entities.
    Implementing Management Functions. While I have indicated in my 
prior testimony that there remains much work to be done in the area of 
improving and integrating management functions, there has nevertheless 
been progress in these areas. For example, GAO's assessments reflect 
our progress in assessing and organizing acquisition functions to meet 
agency needs. We have also designated a Department Chief Financial 
Officer, appointed by the President and confirmed by the Senate, who is 
currently working to prepare corrective action plans to address 
internal control weaknesses. In the area of human capital, we have 
developed a results-oriented strategic human capital plan, and have 
created a comprehensive plan for training and professional development. 
We have also organized roles and responsibilities for information 
technology under the Chief Information Officer and developed policies 
and procedures to ensure the protection of sensitive information. A 
Senior Real Property Officer has also been established and an Office of 
Management and Budget-approved asset management plan has been 
developed.
    I think it is worth noting that many of the areas in which GAO 
rightly recognizes the Department's progress were those areas where we 
have chosen to focus our resources during our first four years based 
upon a risk-based approach. For example, the Secretary has focused the 
Department's efforts on securing transportation modes given the nature 
of the September 11, 2001 attacks. The GAO Report recognizes that the 
Department has indeed made great strides in this area, giving the 
Department assessments of ``Generally Achieved'' in 37 out of 50 
performance expectations in this area. In this regard, it is worth 
noting that GAO acknowledges that its ``assessments of progress do no 
reflect, nor are they intended to reflect, the extent to which DHS' 
actions have made the nation more secure in each area''.
    While we were pleased that GAO recognizes our progress in these and 
other areas by indicating that we had ``Generally Achieved'' relevant 
performance expectations, the Department continues to believe that the 
GAO Report is based upon a flawed methodology. This methodology results 
in many assessments that do not fully or accurately reflect the 
Department's progress.
    We have raised our concerns with the methodology used by GAO on 
several occasions, including in our July 20, 2007 comments to the draft 
report. GAO's recent reply to our comments notwithstanding, these 
methodological issues continue to contribute to the report's systematic 
understatement of the Department's progress at the four-year mark. 
Therefore, I think they bear repeating here. We are particularly 
concerned that the GAO report:
        <bullet> Is based on vague and shifting criteria, standards, 
        and performance expectations that results in an ``A or Fail'' 
        grading system;
        <bullet> Does not properly credit DHS for the on-track 
        implementation of long-term, multi-year goals;
        <bullet> Does not account for constantly evolving programs, 
        especially those where total achievement may never be possible;
        <bullet> Is subjective and does not normalize the audit 
        standard amongst analysts to ensure consistent assessments 
        across the 171 performance expectations;
        <bullet> Does not consistently account for issues outside the 
        control of DHS;
        <bullet> Relies on outdated or inaccurate information; and
        <bullet> Weighs all performance expectations equally.
    Many of these concerns were first expressed to GAO in connection 
with an initial, draft Statement of Facts provided by GAO to the 
Department in February. To evaluate the Department's progress over its 
first four years, GAO officials had relied almost exclusively on 
outdated reports and data to rate the Department's performance on a 
subjective, binary scale of ``Generally Addressed'' or ``Generally Not 
Addressed.'' GAO indicated that an assessment of ``Generally 
Addressed'' was given where analysts determined that DHS had ``taken 
steps to effectively satisfy most of the key elements of the 
performance expectation.'' GAO neither defined ``effectively satisfy,'' 
nor identified the key elements or criteria associated with each 
performance expectation. Accordingly, the initial Statement of Facts 
and assessments provided us with little insight into how GAO had 
evaluated the Department's activities.
    After the Secretary personally reviewed the initial Statement of 
Facts, he wrote to the Comptroller General on March 7, 2007 expressing 
his concerns and offering to work with GAO ``to ensure the final GAO 
statement fully reflect[ed] the Department's achievements over the past 
four years.'' Shortly thereafter, the Department provided GAO with 
thousands of pages of documents explaining how key programs were on 
track and a detailed 100-plus-page explanation of the Department's 
overall progress. Over many weeks, the Department continued to provide 
additional documentation and meet with GAO officials to demonstrate how 
DHS was addressing various program areas and performance expectations.
    In late May 2007, GAO officials submitted a Revised Statement of 
Facts which altered the standard for judging the Department's progress 
without prior warning or consultation with the Department. The Revised 
Statement of Facts indicated for the first time that the Department's 
progress would now be rated as ``Generally Achieved'' or ``Generally 
Not Achieved,'' rather than as ``Generally Addressed'' or ``Generally 
Not Addressed.'' Although GAO's recent reply to our comments suggests 
that this was merely a change in language rather than substance, the 
practical differences between these standards are significant, 
reflecting, at a minimum, a difference in how the performance 
expectations would be perceived. ``Addressed'' suggests that a program 
is on track, whereas ``achieved'' indicates final completion. The 
Department went from being rated on the GAO standard to ``effectively 
satisfy most of the key elements of the performance expectation but may 
not have satisfied all of the elements'' to now completely satisfying 
all of the requirements. Our view is that GAO went from a Pass/Fail to 
an A/Fail grading system without explaining why. This is like moving 
the goal post in the middle of a game. Consequently, DHS spent many 
months working to show how the Department had satisfied those now-
abandoned standards.
    Based on this new standard, GAO downgraded its assessments of the 
Department in 28 performance expectations. In 24 such instances, the 
Department went from ``No Assessment Made'' to ``Generally Not 
Achieved.'' These changes were particularly surprising in light of the 
extensive documentation and materials describing the Department's 
progress and successes that were provided to GAO. As discussed in the 
Department's formal response, which is included in the final GAO 
Report, we believe the downgraded assessments are not supported by the 
facts.
    The binary ``Achieved''/``Not Achieved'' standard ultimately 
adopted by GAO mid-audit is particularly ill-equipped to evaluate 
accurately the Department's multi-year programs, especially when DHS is 
only a few years into the project. GAO acknowledges the applied 
standard is ``not perfect'' but supports its decision to maintain the 
binary standard as it was unable ``to assess where along a spectrum of 
progress DHS stood for individual performance expectations''. We 
disagree with the standard used. For example, although GAO officials 
have indicated that the Department's Secure Border Initiative (SBI) is 
``on a trajectory'' towards achievement, the Department received a 
score of ``Generally Not Achieved'' in this performance expectation 
because it had not yet fully completed the goals of the entire SBI 
program. It is important to note that the Department was authorized to 
commence SBInet just one year ago. To assess this program within this 
report under the assumption that the Department has had four years to 
implement it is misleading. GAO's assessments of multi-year programs 
are thus at odds with GAO's own disclaimer that its assessments are 
``not meant to imply that DHS should have fully achieved the 
performance expectation by the end of its fourth year.''
    We are also concerned with the apparent shifting of the already 
nontransparent criteria used by GAO to assess the Department. We 
disagree with GAO's reply that the key elements are somehow 
``inherent'' to the performance expectations. While certain elements of 
a given performance expectation may in some cases be obvious, the 
subjectivity of other key elements and criteria used by GAO is borne 
out by our exchanges with GAO over the past months. In many instances, 
where the Department provided GAO with supplemental information 
directly addressing specific criteria discussed in the initial or 
Revised Statement of Facts, GAO acknowledges DHS's new information yet 
does not fully consider its significance or include additional criteria 
for that performance expectation that was not previously provided to 
the Department. In some cases, this new criteria contained in the GAO 
Report goes beyond or contradicts the scope of the performance 
expectation itself. For instance, GAO's assessment of the Department's 
efforts to implement a strategy to detect and interdict illegal flows 
of cargo, drugs, and other items illustrates this point. The Revised 
Statement of Facts indicated that GAO's assessment was based in part on 
GAO's belief that the Department had not established or met milestones 
for achieving relevant goals. After GAO was provided with information 
to the contrary, GAO simply dropped its reference to those criteria and 
added language regarding new criteria, including the criticism that the 
Securing America's Borders at the Ports of Entry Strategic Plan 
(SABPOE) was ``in the early stages of implementation'' where the 
performance expectation only asks whether a strategy has been 
implemented.
    Moreover, there appears to have been no effort to ``normalize'' the 
process by which GAO officials made admittedly subjective assessments 
across the entire spectrum of 171 performance expectations. As a 
result, GAO analysts in various mission and management areas could have 
evaluated the Department's performance differently. The vague 
descriptions of ``Generally Addressed'' and then ``Generally Achieved'' 
do not appear to provide detailed guidance to support these 
determinations or ensure consistency in application. Therefore it is 
difficult to have confidence in the level of consistency applied in 
evaluating the performance expectation criteria or the assessments 
based upon them. Furthermore, the GAO Report treats all of the 
performance expectations as if they were of equal significance. While 
all of the 171 performance expectations included in the GAO Report are 
important, they are not of the same priority when it comes to securing 
the nation's homeland. GAO readily admits that it did not weigh the 
relationship between each performance expectation with the Department's 
overall priorities and mission. In contrast, the Department uses a 
risk-based approach to consider its overall priorities and mission in 
choosing where to focus its limited resources. As previously discussed, 
the GAO Report indicates that DHS has made the greatest progress in 
several areas that it identified as priorities, such as securing 
transportation modes.
    In addition to these methodological concerns, we believe that many 
of GAO's specific assessments do not reflect the significant progress 
made by the Department over the past four years. The following are a 
few prime examples:
        <bullet> Even after our July 20, 2007 comments GAO continues to 
        assess the Department's efforts to detect and identify illegal 
        border crossings as ``Generally Not Achieved.'' This assessment 
        understates the importance of our successful efforts to deploy 
        6,000 National Guard agents to the border, to increase Border 
        Patrol staffing by 30 percent since 2001, and to begin 
        implementation of the comprehensive SBI Program. For example, 
        GAO does not take into consideration the Department's efforts 
        to secure the northern border. It also does not mention that 
        U.S. Customs and Border Protection (DHS-CBP) Border Patrol 
        apprehensions for the first three quarters of Fiscal Year 2007 
        are down 24 percent compared to the previous year along the 
        southwest border, indicating a significant decline in illegal 
        cross-border activity between ports of entry. The Yuma, 
        Arizona, and Del Rio, Texas, sectors experienced the greatest 
        declines, with decreases of 68 percent and 51 percent, 
        respectively. The number of other-than-Mexican alien 
        apprehensions dropped 48 percent along the southern border. The 
        decrease in other-than-Mexican apprehensions reduces the time 
        agents spend transporting and processing them, and increases 
        the time spent patrolling the border.
        <bullet> The GAO Report's assessment that the Department has 
        ``Generally Not Achieved'' the goal to establish standards and 
        procedures for effective airport perimeter security and to 
        control access to secured areas does not give proper 
        consideration to the extensive documentation recently provided 
        to GAO by the Department's Transportation Security 
        Administration (TSA). The documentation not only demonstrates 
        substantial progress in establishing standards, but also the 
        steps the Department is taking in implementing those standards. 
        For instance, TSA established the Aviation Inspection Plan as 
        guidance to implement the Aviation and Transportation Security 
        Act (ATSA). Based on the Aviation Inspection Plan, TSA is 
        conducting perimeter and access control pilots with airports, 
        and has recommended to airport operators commercially available 
        measures or procedures to prevent unauthorized access to 
        secured airport areas. The Report continues to downplay the 
        significance of the detailed action plan addressing all GAO 
        recommendations from its 2004 audit and many processes already 
        in place to improve airport perimeter security and access 
        controls.
        <bullet> The GAO Report's assessment that the Department has 
        ``Generally Not Achieved'' the goal of leveraging technology, 
        personnel and information to secure the border is incorrect. 
        The US-VISIT program incorporates eligibility determinations 
        made by both DHS and the Department of State into a continuum 
        of security measures to secure the border. US-VISIT manages 
        systems that operate at 283 air, sea and land ports and 210 
        Consular Offices worldwide. These systems collect data and 
        screen travelers against existing watch lists and databases 
        containing information about previous DHS encounters with the 
        traveler, verifying identities and travel documents. The 
        Department also captures data on individuals attempting illegal 
        entry between the ports of entry, as well as individuals who 
        are being investigated or removed from the interior of the 
        country. This information is then shared with the ports of 
        entry, Consular Offices, Border Patrol Stations, Immigration 
        and Customs Enforcement (USICE) Field Offices, U.S. Citizenship 
        Immigration Services (USCIS), and the U.S. Coast Guard. GAO's 
        statement that there is ``more work to be done,'' which will 
        almost certainly be true should substantiate this subjective 
        score.
        <bullet> The GAO Report's assessment that the Department has 
        ``Generally Not Achieved'' the goal of developing new programs 
        to prevent future immigration benefit application backlogs from 
        developing is incorrect. In GAO's response to the Department's 
        July 20, 2007 comments, they acknowledge that the Department 
        has initiated various programs to help reduce processing time. 
        Despite this acknowledgement, GAO maintains its subjective 
        assessment of ``Generally Not Achieved''.
        <bullet> We continue to disagree with GAO's assessment that the 
        Department has ``Generally Not Achieved'' the goal of 
        establishing training programs to reduce fraud in the benefits 
        process. This assessment provides an example of our concerns 
        about GAO's shifting and vague criteria, as GAO's focus has 
        apparently shifted from the ``establishment'' of training 
        programs to concerns about the specific implementation of those 
        programs. Not only has the Department established training 
        programs, it is implementing them and has provided to GAO 
        statistics on these training classes including number of 
        attendees and course content. Additionally, this assessment is 
        based on shifting criteria. The GAO requested we establish 
        training programs and is assessing the Department on how the 
        training program has been implemented.
        <bullet> The GAO Report's assessment that the Department has 
        ``Generally Not Achieved'' the goal of implementing a 
        prioritized worksite enforcement strategy does not capture the 
        significant progress that ICE has made since 2004. Immigration 
        and Customs Enforcement's (USICE) efforts have resulted in a 
        significant increase in the use of the employment verification 
        system as well as significant increases in investigations and 
        arrests. The worksite enforcement strategy is a comprehensive 
        three-pronged approach: (a) criminal investigations of 
        egregious employer violators; (b) enhanced employer compliance 
        and outreach to help employers follow the law; and (c) ensuring 
        that critical infrastructure sites have only authorized 
        workers.
        <bullet> The GAO Report's assessment that the Department has 
        ``Generally Not Achieved'' the goal of implementing a 
        comprehensive strategy to interdict and prevent trafficking and 
        smuggling of aliens into the U.S is not supported by the facts 
        provided to GAO officials. The Department's implementation 
        strategy for counteracting the trafficking and smuggling of 
        aliens is just one part of the larger SBI and SABPOE Strategic 
        Plan. DHS has made significant progress coordinating with other 
        departmental components and federal agencies to target cross-
        border criminal activity, including human trafficking.
        <bullet> The Department does not agree with the assessment that 
        the Department's Science and Technology (S&T) directorate has 
        ``Generally Not Achieved'' the goal to create a plan for its 
        departmental research, development, testing and evaluation 
        activities. S&T delivered a Strategic Plan to Congress on June 
        26, 2007 that incorporates a five-year Research and Development 
        Plan including information on milestones for fiscal years 2007 
        through 2011. The milestones, deliverables and goals are 
        included for every project within S&T, especially Test and 
        Evaluation. It reflects the highest level objectives for 
        internal departmental activities, and provides overarching 
        guidance for addressing the science and technology needs within 
        each homeland security mission area. The Plan also addresses 
        the importance of developing a strong homeland security science 
        and technology national workforce by developing professional 
        S&T employees.
        <bullet> Although GAO changed its assessment of our efforts 
        towards developing a comprehensive Enterprise Architecture (EA) 
        that substantially meets each of the Enterprise Architecture 
        Management Maturity Framework (EAMMF) elements from ``Generally 
        Achieved'' to ``No Assessment Made,'' we continue to believe 
        that this expectation has been met.
        We also believe that the comprehensive EA has been implemented, 
        contrary to GAO's assessment of that related expectation. With 
        significant input from stakeholders, the Department has made 
        great strides in these areas. In fact, the Office of Management 
        and Budget has rated the Homeland Security Enterprise 
        Architecture 2007 as a 4.3 on a 5.0 scale for completeness and 
        a 4.5 on a 5.0 scale for use, which includes the elements of 
        governance, change management, deployment, collaboration, and 
        Capital Planning and Investment Control integration. The August 
        2006 GAO report found that DHS fully satisfied 24 out of 31 
        applicable EAMMF elements, and partially satisfied four 
        additional elements. Since that time, DHS has taken additional 
        steps to identify and/or address the final three elements.
        Products related to the EA are now required to undergo 
        independent verification and validation (IV&V) which will 
        ensure interoperability, compatibility, and efficiency within 
        the larger structure. DHS has also worked to centralize 
        information technology (IT) processes and avoid unnecessary 
        duplication, by requiring adherence to the EA for all IT 
        investments over $2.5 million. In addition, the Office of the 
        Chief Information Officer is currently aligning all new 
        investments to the EA. All IT investments in Fiscal Year 2008 
        have already been aligned with the Department's strategic plans 
        and will continue in future fiscal years. Also, with respect to 
        implementing the EA, DHS has created a repeatable methodology 
        for assessing potential IT investments. The developed 
        methodology is based upon detailed compliance criteria.
    The Department also takes strong exception to GAO's assessments 
within the Emergency Preparedness and Response mission area. In 
addition to the five performance expectations that GAO recognizes that 
we have Generally Achieved, we also believe that the Department has 
Generally Achieved 10 additional performance expectations. The 
following are some examples in this mission area that reflect the 
progress we have achieved:
        <bullet> GAO maintains that the Department has ``Generally Not 
        Achieved'' the goal of establishing, coordinating, and 
        implementing a single, all hazards national response plan. In 
        fact, the Department issued the National Response Plan in 
        December of 2004. With regard to implementation, the Department 
        has actively trained Federal, state and local government and 
        non-governmental leadership and first responders since the 
        plan's release through a formal roll-out process, an on-line 
        training course, workshops, and regular exercises. GAO's 
        reliance on ongoing efforts to revise and update the NRP as a 
        basis to downgrade the Department's assessment does not reflect 
        the reality that the NRP is a living document that will be 
        regularly reviewed and revised as long as it is in existence. 
        This assessment is an example of GAO's flawed methodology, as 
        it does not take into account the nature of the Department's 
        constantly evolving, yet established programs. Even as the 
        successor to the NRP, called the National Response Framework, 
        has been recently published for public comment, the existing 
        NRP continues to serve as a single, all-hazards national 
        response plan.
        <bullet> The Department disagrees with the assessment of 
        ``Generally Not Achieved,'' regarding the goal to ensure the 
        capacity and readiness of disaster response teams. GAO does not 
        give sufficient consideration to readiness and capacity of 
        FEMA's disaster response system that is in place and now tried, 
        tested, and proven to be successful in recent hurricanes, 
        tornados, floods, and tropical storms. FEMA continues to work 
        hard to refine doctrine, policies, procedures, guidance, and 
        metrics, for its disaster response teams and activities. In 
        fact, the interagency community, especially the Department of 
        Defense, was very complimentary of the comprehensive 
        coordination, led by FEMA, in preparing for a response to 
        Hurricane Dean. The Federal Incident Response Support Teams 
        (FIRST) from Atlanta and a Mobile Emergency Response Support 
        (MERS) Component were airlifted to Puerto Rico by Coast Guard 
        and Department of Defense aircraft and were in position well 
        before Hurricane Dean's arrival. The FIRST demonstrated for the 
        first time the capability to provide real time situational 
        awareness in a live video broadcast from Puerto Rico back to 
        the FEMA Headquarters and the Regional Response Coordination 
        Center. In addition, six Urban Search and Rescue (US&R) Task 
        Forces and a US&R Incident Support Team were deployed to Fort 
        Worth, Texas, and the FIRST from Chicago was deployed to 
        McAllen, Texas, for support. After the storm passed Puerto 
        Rico, the FIRST was quickly flown back to Atlanta and was 
        prepared for a second deployment in case of a future hurricane 
        strike.
        <bullet> DHS also disagrees with GAO's assessment that the 
        Department has Generally Not Achieved the goal to develop the 
        capacity to provide needed emergency assistance and services in 
        a timely manner to individuals and communities in an emergency 
        event. Critical services, such as improved logistics tracking 
        and capacity, increased disaster victim registration, and 
        robust fraud, waste and abuse protections are in place and 
        fully functional. Recently, FEMA received high marks from the 
        Mayor of Greensburg, Kansas for its rapid response to the 
        tornado which destroyed 90% of the town. Mayor Lonnie McCollum 
        said ``As I broke down my back door to go out, there's a 
        fireman from Dodge City, Kansas. He meets me as I'm digging out 
        of the rubble to see if I'm OK. And almost the next person 
        behind him is somebody from FEMA.'' FEMA is also supporting 
        major planning efforts in the Gulf Coast states to address 
        evacuation needs should another major disaster strike that 
        area. Additionally, the Department has undertaken a number of 
        initiatives such as the National Shelter System with the Red 
        Cross to improve shelter management. FEMA has also engaged in 
        outreach to other Federal agencies to ensure the smooth and 
        responsive coordination of Federal support and has been working 
        closely with highest risk hurricane states on a gap analysis 
        initiative that helps the States identify and address the their 
        strengths and weaknesses.
        <bullet> DHS disagrees with GAO's assessment that the 
        Department has Generally Not Achieved the goal to develop a 
        system for collecting and disseminating lessons learned and 
        best practices to emergency responders. The Department 
        developed the Lessons Learned Information Sharing website in 
        2004 for the first responder community. Based on user feedback 
        the Department has been making significant system upgrades 
        resulting in dramatic improvements in the ability of first 
        responders to access and share valuable information on all 
        aspects of emergency response and homeland security.
    Our response to the GAO dated July 20, 2007, which is included in 
the GAO Report contains a more detailed discussion of these and other 
particularly problematic assessments contained in the GAO Report.

Conclusion:
    The Department has done a great deal to ensure the safety and 
security of our country. We are proud of what DHS has been able to 
accomplish in a short time, notwithstanding the many challenges faced 
by the Department. We are pushing ourselves to strengthen the 
Department and are committed to strengthening its management and 
operational capabilities.
    I want to take this opportunity to publicly thank the Department's 
employees for their tireless efforts and those who made the ultimate 
sacrifice with their lives to ensure the freedom of our nation. Moving 
forward, we will build upon the Department's recent program 
developments and successes while dedicating ourselves for continual 
improvement.
    In pursuing our mission, I look forward to maintaining the 
cooperative approach with the GAO that was followed in preparing this 
report. This process has provided valuable lessons on a better way 
ahead and we look forward to working with GAO to obtain upfront the 
necessary clarifications on performance expectations. I also want to 
thank the Congress and this Committee for your leadership and your 
continued support of the Department of Homeland Security. I am happy to 
answer questions that you may have.

    Chairman Thompson. Thank you very much. I want to thank 
both of you for your testimony.
    And I would like to remind each member that he or she will 
have 5 minutes to question Mr. Walker and Mr. Schneider.
    I now recognize myself for questions.
    Mr. Walker, you have heard the department's disagreement 
with your report. Do you stand by your report to this 
committee?
    Mr. Walker. We do and, frankly, I think it is reasonable to 
expect that when you are doing something like that, that there 
are going to be some areas of disagreement.
    Let me make it very clear. The approach that we took we 
laid out. It was transparent. It is true that the department 
expressed concerns about the approach, but very late in the 
ballgame, after we had done most of the work and, therefore, we 
couldn't turn the battleship that late in the ballgame.
    The bottom line is this: that while there are differences 
of opinion on how we evaluated some of the individual 
performance expectations, frankly, even given those differences 
of opinion, I doubt there would have been much of a difference 
in what our bottom line assessment would have been with regard 
to overall progress.
    More importantly, we have agreed that we are going to come 
up with an alternative methodology for prospective evaluation 
of the Department of Homeland Security, which, as I said 
before, I believe to consider both status, as well as whether 
or not they are making meaningful progress on a prospective 
basis.
    Chairman Thompson. Thank you very much.
    One of the questions, Mr. Schneider, is take the SBInet 
contract. In that contract, we find some costs associated with 
the fence and we can't get the hard figures on the fence.
    We have had $1.6 million as a cost, but some say it could 
go as high as $4 million per mile.
    Do you have any information on that particular issue?
    Mr. Schneider. Mr. Chairman, I can get you the information. 
I can tell you, having spent some time looking at the secure 
border initiative, that different areas of fence actually cost 
a little different per mile and that is because of the nature 
of the fence in that particular geographic area.
    What we do is we look at what type of fence is appropriate, 
a fence, vehicle barriers. So the numbers are not going to be 
identical as, for example, the----
    Chairman Thompson. Excuse me. When you average it out, is 
it $1.6 million per mile?
    Mr. Schneider. I don't know the average.
    Chairman Thompson. Can you get that information for us?
    Mr. Schneider. Yes, sir. Yes, I will.
    Chairman Thompson. Mr. Walker?
    Mr. Walker. Let me just say, Mr. Chairman, that, obviously, 
they are in a better position to get the information. The 
number you heard about the $4 million, it is my understanding 
that the current estimate of the cost per mile for Project 28, 
which is a virtual fence and it is seven miles long, is about 
$4.5 million a mile.
    Now, that is high tech equipment and, obviously, there are 
other portions aren't as high tech that would be less cost, 
presumably.
    Chairman Thompson. Are you aware, Mr. Schneider, of any 
performance bonuses associated with this contract?
    Mr. Schneider. No, no, I am not.
    Chairman Thompson. If there are, will you provide the 
committee with that information on the contract?
    Mr. Schneider. Yes, sir, I will.
    Chairman Thompson. Thank you.
    Mr. Walker, did you have any difficulty getting any of this 
information from the department?
    Mr. Walker. We have had difficulties in the past with 
regard to timeliness. We haven't been outright denied 
information from the department, but sometimes it has taken a 
significant amount of time for us to gain access.
    That was the purpose of my correspondence with Secretary 
Chertoff within the last couple of weeks and, as I said, he 
responded right before this hearing, and I was encouraged by 
his response.
    He is committed that he wants to work with us to give us 
timely access, and that he wants to try to work to try to 
streamline their practices. It is not their policies as much as 
what the historical practices have been. And I take him at his 
word.
    And so we will keep this committee apprised, as well as the 
Senate Homeland Security and Governmental Affairs Committee.
    Chairman Thompson. Thank you. But if you had to rank the 
department, Mr. Walker, at this juncture, as you compare other 
agencies in terms of getting information to you to do your job, 
how would you rank it?
    Mr. Walker. It ranks below average with regard to the 
timeliness of getting information to us, but it is got a 
massive undertaking and it has got a lot of people that are 
trying to get information from it, too.
    It would be below average at this point in time.
    Chairman Thompson. So we take Secretary Chertoff's letter 
as an effort to get the department above average.
    Mr. Walker. I do. In fact, one of the things that I want to 
do on a prospective basis is to annually evaluate each 
department and agency with regard to how they are doing, along 
with records access, responding to our recommendations and a 
variety of other factors, in order to highlight those that are 
doing well and hopefully encourage those that aren't doing as 
well to do better, as well as recognizing progress when 
progress is made.
    Chairman Thompson. Thank you very much.
    I yield 5 minutes to the ranking member, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Walker, in looking at your overall assessment, a minute 
ago, you used the phrase ``bottom line'' and you framed this 
earlier in your statement that this is government and even in 
the private sector it would take 5 to 7 years to achieve this 
merger and expect the operation to be efficient and effective.
    Your bottom line assessment--is the development that you 
are seeing by DHS, in your word, meaningful?
    Mr. Walker. I think they have made meaningful progress. 
They have made more progress on the mission front, which I 
would hope and expect, than they have on the mission support 
front.
    As you can see in our report card, that the area they have 
done the best is maritime security, lot of reasons for that, 
including the Coast Guard, which is a very well run 
organization, in general, but there are other areas where they 
have got quite a ways to go.
    Mr. Rogers. And I guess that is what I am trying to get at. 
As I have talked to people back home about homeland security 
and the frustrations that we have experienced post-Katrina and 
in other areas, I try to remind folks that while I am very 
critical of the department in a lot of ways, it is still in 
development.
    I reference it as being like a gangly teenager still trying 
to get control of itself, and so people need to be patient 
about that. And I wanted to hear from you, do you think that 
the point of development that they are in now is acceptable 
given where they came from in 2003 and where you expect them to 
be in that 7 to 8, 9-year----
    Mr. Walker. Mr. Rogers, I don't think it would be fair to 
the Congress or fair to DHS for me to give it just one bottom 
line assessment. I think what we tried to do is to say, ``Look, 
there are certain areas where they are doing well and where 
they have made considerable progress. There are other areas 
where they are not doing as well.''
    They have a limited amount of resources, both financial and 
human, and they have some restrictions on what they can do, as 
well. And so I think I will stick by what I have said on the 
overall assessment.
    In some areas, they are doing well. In some areas, they 
need to do better.
    Mr. Rogers. And I agree, but the bottom line is the 
American people are going to take an assessment from your 
report, either their development is acceptable, at an 
acceptable pace, or it is not, and I guess that is what I am 
trying to----
    Mr. Walker. And it depends on the area. Here is the bottom 
line. Are we safer than we were on 9/11/2001? Absolutely. Will 
we ever be totally safe? No. And we need to keep in mind that 
this is not just about counterterrorism. It is also about 
natural disasters.
    That is what Katrina and Rita was.
    And we also need to keep in mind that before 2003, before 
the creation of this department, with 22 different agencies, 
most of these agencies' mission was not homeland security.
    So we basically have created a huge merger with different 
agencies, different cultures, different systems, most of which 
weren't even focused on homeland security. And so progress 
varies, but I am not surprised at that at this point in time.
    Mr. Rogers. Thank you. I will give up on trying to get you 
to say whether it is acceptable or not.
    I do want to turn to your methodology. I understand that 
you acknowledge and Mr. Schneider has acknowledged there has 
been a difference as to whether the methodology was acceptable 
and that, going forward, prospectively, you intend to use a 
modified methodology.
    Going forward, are you going to both agree to objective 
ways of interpreting progress in the future?
    Mr. Walker. What we have committed to do is that we will 
work with DHS in order to help develop a revised methodology 
that will consider all these performance expectations and that 
will also consider the fact that one needs to be concerned not 
just whether or not they have been met, but whether or not 
meaningful progress is being made towards ultimately meeting 
them.
    In the final analysis, we want to work together 
constructively and cooperative, but in the final analysis, GAO 
will have to use its independent professional judgment about 
what it thinks is the right answer, because it is our name that 
goes on the evaluation.
    Mr. Rogers. I guess what I am getting at is I want to take 
the subjectivity out of it, though. I would like to make sure 
that you know and DHS knows, when you are going to grade them, 
what the standards are, what the objectives are that are being 
measured, and that DHS has basically a heads-up about what they 
are going to be tested on.
    Mr. Walker. Well, I think our methodology was transparent. 
There is a difference of opinion about whether or not it was 
appropriate and whether or not it was the right one.
    I mean, I don't think there is any debate about the fact 
that our methodology was transparent. What I hear the 
undersecretary saying is that he believes that our methodology 
didn't give them enough progress in areas where they think they 
have made considerable progress and certain other factors.
    Well, what I am proposing to do is to consider both whether 
or not they have met or not met, but, also, whether or not they 
are making meaningful progress. That, in and of itself, I 
think, is a good faith attempt to try to bridge the difference.
    Mr. Rogers. Thank you. My time is up.
    Ms. Sanchez. [Presiding.] I thank the gentleman.
    I will now allow 5 minutes of questioning for myself.
    Mr. Walker, over the years that I have been sitting up here 
and we have been taking a look at DHS, I have to admit that I 
was not a vote to form the Department of Homeland Security. The 
reason was I used to work for Booz Allen, and I did performance 
audits, and I did a lot of M & A work, and I knew what a hell 
it is for two companies to come together, let alone 22 
different pieces of the government, and I knew this would take 
a long, long time.
    And under the committee that I chair, the subcommittee that 
I chair, which has to do with maritime, border, really the 
ingress and egress into the United States, I look at some of 
the really major projects.
    I mean, we have America really angry about immigrants 
coming into this country and I look at SBInet, which is our 
first solution to trying to do something with this, and the 
dates missed and nobody can tell me when I am going to get it.
    I look at US-VISIT, figuring out who is coming in and 
whether they are leaving our country when they are supposed to 
leave, and I have DHS not having an exit program piece of that, 
and that is a major piece of this whole visa overstay and 
everything, and it is just not working. They don't have it up.
    I look at the TWIC card, ports, maritime. Who is on our 
ports? Who is actually there? Who is doing it? And they can't 
get the TWIC thing together. They were supposed to do it July 
1. Then who knows what the new rollout date is and when the 
pieces are going to be put together.
    Coast Guard and I look at Deepwater. In the major areas 
that, at least under my committee, I look at, I see a lot of 
work being done, but everything is missing the mark, and the 
reality of why we are doing those programs, we are not meeting 
what we need to be doing.
    I am going to submit for the record specific questions to 
those projects that I hope you or somebody in your department, 
when you are looking at the department, can get answers back to 
me on that.
    But when I step back and I look at it, I guess I have also 
heard over these years that management has really lacked, that 
the talent--somebody told me, one of your earlier people in a 
different hearing said something to the effect of ``There is 
vision at the department, but management is really lacking.''
    Can you tell me, is that still true? Because we have had so 
many people move in and move out of jobs. Is it still really 
the management problem that is really hampering us from being 
able to ensure we are getting some of this done?
    Mr. Walker. Well, in any organization, as you know, and 
having been in consulting yourself, I was in the private sector 
for 21 years and did a lot of change management consulting 
myself, you need to have a plan.
    That plan has to recognize what the different goals and 
objectives are consistent with the mission. The plan has to 
recognize what resources you have. The plan has to be risk-
based and it has to be implemented by capable people who are 
going to hopefully be there long enough in order to see through 
a number of these initiatives.
    More needs to be done with regard to the planning, 
especially the risk-based assessment. There are a number of 
open positions in the Department of Homeland Security, a number 
of critical open positions right now and, candidly, in 
government much more than the private sector, you see a lot 
more turnover in some of the critical leadership positions than 
you and I are accustomed to.
    For example, at DHS, we have had two secretaries, three 
deputy secretaries, two undersecretaries for management, and 
many other players have changed during the period of time.
    I think one of the things that we have to recognize, which 
I have touched on before, is we need to recognize that with 
regard to major management activities, strategic planning, 
organizational alignment, financial management, information 
technology, human capital strategy, change management, 
knowledge management, we need to look at those positions 
differently and figure out how we can end up getting people in 
those jobs that can stay there longer.
    And that also includes the undersecretary for management, 
where we have proposed that that be converted into a term 
appointment to provide continuity not just with 
administrations, but between administrations.
    Ms. Sanchez. Let me ask you one last question before we go 
to the next Congressperson.
    This issue of resources, because as I recall, when the 
legislation was done to create the department, it was supposed 
to be neutral with respect to the dollars. In other words, the 
pieces of the government that we had before, we were going to 
put them in this new department, but they were going to bring 
their budgets with them, and it wasn't supposed to necessarily 
increase.
    I think that is originally how the legislation was looked 
at and how it was passed and, I think, implemented. And then 
over the years we have increased a little here and a little 
there for programs, but overall, not a lot of money--from my 
standpoint, and maybe it is because I sit on the defense 
committee, also, but when I look at it, I haven't seen a lot of 
resources really dedicated to homeland security.
    In your opinion, is that right, that it was sort of revenue 
neutral, in a sense, when it was created and it has been 
augmented?
    Mr. Walker. Well, I would have to let Undersecretary 
Schneider talk about what their budget has been. I don't have 
that off the top of my head.
    My understanding is, initially, it was basically neutral, 
but over time, they have received additional resources. So the 
question is how much do they have and then how much flexibility 
do they have with regard to the utilization of those resources.
    So it is not just how much money you give them and how many 
people you give them, but how much flexibility they have to be 
able to allocate that money and allocate those people to add 
the most value and mitigate the most risk, and that is 
important, as well.
    Ms. Sanchez. Mr. Schneider?
    Mr. Schneider. Yes. Congresswoman, my understanding is when 
the department was set up, it was basically revenue neutral. We 
have, over the past 3 years or so, our budgets have gone up 
quite a bit in certain areas, and we can obviously get you the 
numbers.
    Some of those areas are where it was basically we put in 
the budget and it was authorized and appropriated by Congress, 
some of the major modernization programs. The Deepwater program 
is about $1 billion a year. SBInet or SBI, I should say, is 
over $1 billion a year. A lot of the increases in manning in 
terms of border patrol agents, ICE agents and the like, 
increase of our efforts in the fugitive operations with ICE in 
terms of detention and removal capability all has basically 
received augmentation of funds.
    So our resources have gone up over the years in those 
areas, those major mission areas that the comptroller general 
talked about, where we have made a fair amount of progress, 
more so than, as he indicated, in the management area.
    Ms. Sanchez. I am just thinking of some of the frustration, 
also, with the department that many of us have, my colleagues, 
for example, people waiting to get their green cards or to do 
their work visas, 7 or 10 years or what have you on some of 
these programs.
    It just seems like maybe the Congress didn't put moneys 
toward or augmented those programs, but there are a lot of 
decent people waiting for this department to get some of this 
done, and we just don't see it happening fast enough.
    Mr. Schneider. If I may, the areas where we are trying to 
build, if you will, are some of our major transformation 
efforts, and it is not just hiring more agents.
    We know, for example, Customs and Immigration Services, we 
have antiquated capabilities. When I first met with the 
director, he told me, ``Picture the 'Indiana Jones' first 
movie, where, at the end of the movie, the Ark is put in this 
big underground cave with miles and miles of files that are 
paper files.''
    He said, ``Paul, picture that.'' He said, ``That is the 
situation we have in terms of modernization.'' So we embarked 
on trying to modernize CIS using different business models, 
information technology and the like.
    So we have a long way to go, as the comptroller general 
indicates, in these areas and that is where we are starting to 
increase our focus. That is where we are properly evaluated 
fairly low, quite frankly, and that is where we know we have a 
substantial amount of work to do.
    Ms. Sanchez. Thank you, Mr. Schneider.
    Seeing no other Republican on your side, I will go to Ms. 
Harman.
    Ms. Harman. Thank you, Madam Chair.
    Ms. Sanchez. For 5 minutes.
    Ms. Harman. Welcome to our witnesses.
    This morning, the director of national intelligence, Mike 
McConnell, testified before the House Judiciary Committee on 
FISA, an issue that I, for one member of Congress, hope we deal 
with seriously and modify.
    But at any rate, in the course of his testimony, he was 
outlining the threat to the homeland and, in part, he said, 
``Al-Qa'ida is and will remain the most serious terrorist 
threat to the homeland. Al-Qa'ida will continue to enhance its 
capabilities. Al-Qa'ida's homeland planning is likely to 
continue to focus on prominent political, economic and 
infrastructure targets, with the goal of producing mass 
casualties. Al-Qa'ida will continue to try to acquire and 
employ chemical, biological, radiological and nuclear material 
in its attacks,'' and then he talks about how Lebanese 
Hezbollah also may consider homeland attacks.
    I mention this because the threat, in my view and his view 
and the view of many others, is real and it is right now, which 
is why this hearing has urgency.
    I am wondering, if I were a hardworking employee of the 
Department of Homeland Security, listening to this hearing, how 
I would feel right now. I think most of the people who work at 
DHS in the various departments think they are a real threat to 
the homeland.
    I think certainly most of them try very hard to get their 
jobs right. But if I were tuning in from DHS, I might throw my 
hands up and say, ``Oh, my god, this is impossible. This is 
never going to get right, and I am working this hard, and I 
won't be able to succeed.''
    I mention that not because I think we shouldn't ask the 
tough questions, but I think we have got to work harder 
together to provide a path forward.
    I had this conversation with David Walker when we came in 
to the hearing and he agrees, and I know you agree, Mr. 
Schneider. We have to work harder together to find a way 
forward immediately, to share information adequately, to do all 
the maritime security fixes that the chairman was just talking 
about, and to fix bigger problem areas.
    And so I think it would be productive if each of you 
addressed that. It is a message to the employees of DHS. How 
are we going to find a path forward together to fix the urgent 
problems?
    And let me just add a p.s. before you answer that. I don't 
want to go over my time, out of respect for other members.
    My p.s. is I think we were over ambitious in what we did 
setting up the department. I voted for it. I was part of a 
hardy little bipartisan band that wanted us to create a 
homeland function.
    None of us was as ambitious as this department is. The 
concept for this department was designed in the Bush White 
House by then Chief of Staff Andy Card, who presented it to 
Congress, and, basically, we knew that that was the train 
leaving the station. So if we wanted reform, we would have to 
take this.
    I think it is over ambitious. Nevertheless, it is what it 
is, as they say.
    So please address my one question, which is how do we send 
a message to homeland department employees that we will find a 
path forward together to fix these urgent problems before we 
have another serious catastrophic attack on the homeland, 
hopefully?
    Mr. Schneider. I will start. First, that is a question that 
most of us in leadership think about, I would say, every day. I 
mean, 9/11 was an awesome impact.
    I worked in the Pentagon at that time. I know where the 
plane hit, wiped out the Navy communications center. I was the 
principal deputy assistant secretary of the Navy. I know people 
who died, and I know people whose lives were changed forever.
    At that point in time, I came to the conclusion, having 
grown up in the Cold War and doing this duck-and-cover drills 
in school, I recognized that our lives would never be the same.
    And so what we do is, and all the leadership does this, is 
we continuously talk to our people. We say we are in this for 
the long haul. We tell them, ``Don't expect giant increases in 
progress.'' The fact of the matter is we are in this for the 
long haul, and so what we try and do, quite frankly, and we do 
it by publishing information, passing words with Web sites, 
information with Web sites, we celebrate incremental progress.
    Ms. Harman. I do think it is very important, too, that we 
push harder together to achieve, to fill some of these obvious 
demonstrated gaps.
    Mr. Walker?
    Mr. Walker. First, homeland security has a critically 
important mission for the United States. It is part of our 
basic security and self-preservation needs. It doesn't get much 
more fundamental than that.
    It is clearly something that is envisioned that the federal 
government would have an important role in under the 
Constitution.
    We have got tens of thousands of hardworking people doing 
their best day in and day out. They need to continue to do 
their best. That is all we can expect them to do.
    They need to understand that it is going to take time in 
order to achieve this major merger, integration and 
transformation effort. They need to keep their chin up, and we 
need to try to make sure that we recognize their progress, and 
that it is going to take time to achieve everything that is 
necessary.
    Ms. Harman. Well, my time has expired.
    I agree, in part, but I disagree with respect to the 
message just that it is going to take time.
    I think the other message has to be we will help focus this 
so that, in real time, immediately, you can achieve more 
progress in certain key vulnerable areas in America.
    Thank you.
    Mr. Walker. Can I come back real quick, Ms. Harman?
    I think it is really important that we pick our priorities 
well. You have got to target based upon value and risk. You 
have to allocate financial, human and other resources to make 
progress there, and you need to be able to demonstrate that 
that progress is being made, and that is how people can feel 
that they are making a difference, and they are making a 
difference.
    Ms. Sanchez. I thank my colleague from California.
    And I yield 5 minutes to Ms. Lowey of New York.
    Mrs. Lowey. I thank our chair.
    Mr. Walker, Mr. Schneider, I appreciate your testimony. I 
am sorry that Deputy Secretary Jackson put you in this position 
after just 9 months.
    And it seems to me that, once again, the department is just 
passing the buck and instead of admitting that its goals have 
not been met and creating a plan to make our country more 
secure, what we are hearing from DHS is excuses and you are 
saying, ``Yes, we try harder,'' and then they are claiming that 
the methodology GAO used is faulty.
    Everyone knows on this committee, we all know it and we all 
want to work together and, as a New Yorker, I want to tell you, 
I am impatient, because I know there are possible threats out 
here. And I don't want to see ``I will give you an 'I' for 
improvement.''
    I have to tell you something. When my kids were in 
elementary school, they knew that if we saw ``I-needs 
improvement,'' it doesn't mean an ``A'' or an ``A+'' or a 
``B.''
    So we need to see real improvement here and we all know, as 
I said, that the job of this department is difficult, whether 
we voted for it or we didn't vote for it.
    However, I would have more confidence in this 
administration's ability to make us more secure if the problems 
were recognized and you were working to fix them. Instead, we 
get from the department finger-pointing.
    And as I read Undersecretary Schneider's testimony, the 
aspect, frankly, that stood out the most is that it is little 
more than an excuse. There is no plan for how the problems will 
be addressed.
    So I just want to make it very clear, before I get to a 
specific question, that if September 11 taught us anything, it 
should be that our enemies are well funded, they are well 
financed, and they are very patient.
    This is a painful pill to swallow, especially for me as a 
New Yorker, who has been to more funerals and wakes than you 
can ever have imagined. But we must recognize that it is not 
good enough to secure a few sectors, but leave gaping security 
gaps in others.
    And what you are telling me about the files, that we are 
living in the stone age, why hasn't someone gotten it done? 
There are technology companies. If Microsoft said, ``Well, I am 
so sorry, I can't fix this. All the files are in a cave 
someplace,'' they would be out of business.
    So I am very troubled specifically by the fact that the 
area in which the department performed the worst was in 
emergency preparedness and response. The underlying reason, 
frankly, Mr. Schneider or Mr. Walker, probably Mr. Schneider, 
because Mr. Jackson isn't here, the underlying reason for the 
formation of the department was a terrorist attack.
    And out of 24 performance expectations, the department has 
only achieved five. Yet, Undersecretary Schneider's testimony 
highlights the critical role of defending against, and I am 
quoting, ``preparing for and responding to threats and 
disasters.''
    There seems to be a major disconnect between the two, 
particularly when you consider the indisputable fact that the 
department failed in its response to the first major test, 
Hurricane Katrina, and that just last week, it released a 
national response framework, many months after its own self-
imposed deadline, that was widely criticized by state and local 
emergency managers.
    I am not even sure where to begin with questions, because 
we can go on and on, and my time is running out.
    But, Undersecretary Schneider, can you elaborate how 
defending against, preparing for and responding to threats and 
disasters is a success, when GAO gave the department such poor 
marks on emergency management?
    Mr. Schneider. Yes, Congresswoman. First, for point of 
info, I was born and bred in Brooklyn, okay?
    Mrs. Lowey. I was born and bred in the Bronx, and in the 
Bronx, we need instantaneous success. How about Brooklyn? 
Seriously, seriously, I know you----
    Mr. Schneider. I want to be----
    Mrs. Lowey. Let me just say this. I have heard Mr. Walker 
testify and he is being very kind, and I know there are 
thousands of good people at the Department of Homeland Security 
and we salute them.
    I also serve on the Appropriations Committee, and I know 
that the department has gotten more money than has been 
requested by the administration.
    So rather than excuses, maybe you can come back next time 
or submit in writing to us what you are doing to correct this, 
not saying that ``We didn't agree on the plan or the 
criteria.'' It doesn't make any sense.
    Mr. Schneider. Could I just have a minute, please?
    Mrs. Lowey. Yes.
    Mr. Schneider. And I will come back to you in writing. But 
what I would like to say is this. I think the words, and this 
is where I think we basically agree, I think the words in the 
GAO assessments, the actual detailed words that describe what 
they think our progress has been is fairly accurate.
    What happens and our issue is not with so much their 
description of our progress to date, but how it is labeled. So 
one of the challenges I have, and when people in the department 
ask me about ``What do you do about these poor grades,'' I say, 
``Read the detailed words of the progress.''
    The national response plan is a classic example, okay? We 
flat out disagree with the two ratings. And the reason we 
disagree is when you read the GAO's own words about what we 
have done with the national response plan, the fact of the 
matter is, I submit, most people would read those words and 
say, ``They have made progress in a very critical area.''
    I couldn't agree with you more that that mission area, 
emergency preparedness and response, is one of the most 
critical areas. And I think the comptroller said it, I couldn't 
say it better than him, one of the reasons why we are going to 
mutually work on seeing if we can come up with a different set 
of criteria is, as he says, to come up with a better way to 
accurately describe the progress that is been made to date.
    That is why I say don't look at the grade, look at the 
words.
    Mr. Walker. Can I?
    Mrs. Lowey. I am out of time and it is up to the chair if 
she wants Mr. Walker to answer.
    Mr. Walker. Madam Chair, can I quickly? It won't take more 
than 30 seconds, I promise.
    Ms. Sanchez. Thirty seconds, Mr. Walker, just because you 
are such a nice guy.
    Mr. Walker. Thirty seconds. First, one of the reasons that 
we have not been able to get more comfortable with emergency 
preparedness and response is we haven't been able to observe 
the exercises.
    The exercises are being done to help demonstrate to us 
directly what they have done. Hopefully, we now have a 
breakthrough with the letter from Secretary Chertoff that I 
received this morning.
    Secondly, interoperable communications continues to be a 
major challenge and that is one of the areas that we really 
want to take a look at as part of this observation.
    Thank you.
    Ms. Sanchez. Thank you, Mr. Walker.
    Mrs. Lowey. Let me just thank you, and I am sorry that I am 
impatient, but, frankly, we know that we have to get this right 
and, as my colleague said, we have to work together. And I 
don't think we can afford to get ``I's'' on most of the various 
areas that you have been reviewing. We need to get ``E'' and 
know that our people are safe in the Bronx and Brooklyn and 
Westchester and throughout the country.
    And I thank you. Thank you for your indulgence.
    Ms. Sanchez. You are welcome.
    Mr. Green of Texas for 5 minutes.
    Mr. Green. Thank you, Madam Chair, and I thank the ranking 
member, as well.
    And thank you, men, for appearing today. You each have very 
difficult jobs.
    Mr. Walker, your job is exceedingly difficult because you 
have to evaluate and your evaluation has to have meaning. So I 
appreciate where you are.
    Mr. Schneider, 9 months on the job and here you are. God 
bless you. You have a difficult job, too. Apparently, someone 
thought that baptism by fire was a great way to get you 
inculcated into the proper mindset. So thank you for coming 
today.
    Mr. Walker, you indicated that DHS is a high risk area. Is 
this true?
    Mr. Walker. That the implementation and transformation of 
the new Department of Homeland Security is a high risk 
endeavor. It is on GAO's high risk list.
    Mr. Green. Would you just define that for me, please? What 
does that mean, high risk?
    Mr. Walker. High risk means higher risk of fraud, waste, 
abuse or mismanagement, higher risk of not being able to 
effectively achieve its mission, higher risk of not being able 
to do it in an economical, efficient and effective manner.
    And, in fact, one of the real concerns I have about DHS is 
that they don't end up being where DOD is today. DOD is very 
effective on mission, but they waste billions of dollars every 
year.
    Mr. Green. And Mr. Schneider indicated that your 
methodology, your system has gone from a pass-fail to an A-
fail.
    Is that what you said, Mr. Schneider?
    Mr. Schneider. Yes, sir.
    Mr. Green. Mr. Walker, my assumption is that you don't 
entirely agree with that. So would you give us an explanation 
for why you contend--maybe we will start with Mr. Schneider.
    Mr. Schneider, starting with you, give us an explanation 
for why you contend that it has gone from a pass-fail to an A-
fail, and then I would like to hear your response, Mr. Walker.
    Mr. Schneider. Sure. I will give you one example. Any 
multiyear program, and many of our programs are multiyear 
programs, especially in the mission areas, it is going to take 
many years to achieve the results.
    And even actually in some of the administrative areas, like 
internal controls for financial management, it will probably 
take us out through fiscal year 2010.
    So the fact is before we have actually completed the total 
effort, it is going to take several years. The words in the 
report, in many cases or in most cases, do a pretty good job of 
actually describing they have done this, they have started 
this, but it is going to take a lot of years to go through 
this, so it is generally not achieved.
    Whereas our belief is if you use the term ``generally 
addressed,'' that term in itself implies some degree of 
progress, and that is the issue that the comptroller general 
and I are going to work on for the future.
    So if you have an SBInet program, for example, which is 
absolutely key, a multibillion dollar program for securing our 
borders, the fact of the matter is that in 10 months, we have 
Project 28 up and running. We know what the technical issues 
are with the system. We know what we have to do to fix it.
    I happen to think, from a technology, development and 
fielding standpoint, that is not all bad. In fact, one could 
look at it as good. But the fact of the matter is, because it 
is a multiyear program, the fact is it is generally not 
addressed.
    So that is kind of like ``A'' or fail, as opposed to 
generally achieved or generally not achieved, as opposed to 
generally addressed. And you can go into some of these other 
criteria.
    Mr. Green. I am going to have to give Mr. Walker some time 
to respond.
    Mr. Walker. Let me try to be brief, and let me come back to 
something that every member of this committee should be 
familiar with.
    The Congress asked GAO to evaluate the status of progress 
on the 18 benchmarks in Iraq and when the Congress asked us to 
do that, which I testified on on numerous occasions 2 weeks 
ago, they said they wanted us to tell them whether or not they 
were met or not met.
    We basically used that type of approach in coming up with 
this evaluation for the Department of Homeland Security. We 
also used descriptive language to try to provide some context 
and contextual sophistication, where even if we showed that 
there was not significant progress, to help describe what had 
been done.
    In my view, what is important is not what we have done in 
the past, although we stand by what we have done, it is to 
recognize that, going forward, we have agreed that we are going 
to come up with an approach that will recognize two things, 
which Ms. Lowey talked about, as well.
    One, where do you stand on result, have you achieved it or 
not, and, secondly, whether or not you are making meaningful 
progress, which would allow us to be able to consider 
complexity, whether or not it is likely to be a multiyear 
effort, more than we were able to under this methodology.
    Mr. Green. Thank you. My time has expired. Thank you, Madam 
Chair. I yield back.
    Ms. Sanchez. Next, we will hear from Ms. Clarke of New York 
for 5 minutes.
    Ms. Clarke. Thank you very much, Madam Chair.
    I would like to just state for the record that I would like 
to associate my comments with those of Congresswoman Lowey.
    I am a new member, and I am here about the same amount of 
time you have, Mr. Schneider, and I have to tell you I haven't 
sat here very comforted by knowing that this agency has moved 
in a direction that I think the people of the United States 
would like to see it go, given the fact that the agency was 
stood up in March of 2003.
    In March of 2008, which is just around the corner, it will 
have been 5 years and based on what Mr. Walker has said about 
new agencies and coming together in culture, we are talking 
about typically 7 years.
    Now, this is a mega agency, and I think everyone recognizes 
that, but when you look at the assessment, progress of mission 
and management areas, they don't indicate that we are anywhere 
near where we should be given the fact that typically you could 
say, by the 7th year, okay, we are on firm ground.
    I would like to just really reiterate the concern that we 
have, particularly in the area of emergency preparedness. I 
looked at, also, the area of science and technology, which are 
critical areas, human capital management.
    I mean, to have constant turnover in DHS doesn't help 
anyone, because how do you get institutional memory? How do you 
retain institutional memory? How do you keep the wherewithal, 
the intellect and the talent in place that then builds upon the 
culture that you are trying to create?
    These are critical areas that I don't think we can waste 
any time at really addressing and trying to solidify. And I 
have been here the same amount of time as you have. There have 
been reports that have been requested by this committee that 
have yet to be completed.
    There just seems to be some sort of malaise within the 
agency that I think is really critical that we get past.
    Having said that, I know that you have an awesome task 
ahead of you and an awesome mission and I certainly don't want 
to be one to discourage. I want to be one to encourage.
    So I want to encourage you to go back, speak to your 
colleagues and let them know that there are a lot of people 
pulling for them out here. This is a critical area for us to 
emerge from as experts.
    The American people deserve it, they require it, and I 
don't think they will stand for anything less than that.
    One of the areas that has concerned me is the area of 
border protection, because I have been here and I have listened 
to a lot of the concerns, particularly with respect to the 
southern border.
    I wanted to know whether we have invested--and I will ask 
Comptroller Walker, perhaps in some of your review, you can 
give us a sense of this, about how we are doing with our border 
with Canada and what many would term as the third border in the 
Caribbean.
    It appears as though, oftentimes, we focus primarily on the 
Mexican border and when you look at the performance of DHS and 
border security, it appears that DHS met expectations equally 
at each of these borders or does it appear that the 
expectations have been better met at the southern border, while 
the other borders have received less attention?
    Mr. Walker. Thank you very much for that question. There is 
no question that there has been significantly more time and 
effort, financial resources and human resources focused on the 
southern border, because we are not only concerned with regard 
to homeland security, we are also concerned with illegal 
immigration.
    That is also a major policy issue for the Congress, as 
well.
    Whereas with regard to the northern border, the primary 
concern, for a variety of reasons, is security. And the 
Caribbean, we have done a little bit of work there, not much. 
We have done more work with regard to the Canadian border and, 
clearly, as we have reported, most of the time and effort and 
energy has been focused on the southern border. And we can't 
forget about our other borders as it relates to security 
considerations.
    Although one has to also consider how easy it is to get 
into those countries, too. It is easier to get into Mexico than 
it is to get into Canada if you do it legally.
    Mr. Schneider. We have implemented, through the Customs and 
Border Protection organization of the department, border 
security evaluation teams in all eight northern border sectors 
in order to provide some security in those areas where they 
were previously too remote to have been monitored.
    We are also partnering with the Canadian government in 
several endeavors, what we call the integrated border 
enforcement team, basically interdicting certain persons and 
organizations that might pose a threat to national security or 
be involved in criminal activity.
    Ms. Clarke. My time has expired. Thank you, Madam Chair.
    Ms. Sanchez. You are welcome, Ms. Clarke.
    Mr. Langevin for 5 minutes.
    Mr. Langevin. Thank you, Madam Chair.
    Gentlemen, thank you for being here today, for your 
testimony.
    Mr. Schneider, I would like to start with you, if I could. 
As you know, I am very concerned about the ASP program within 
DNDO.
    As chairman of the Subcommittee on Emerging Threats, 
Cybersecurity, Science and Technology, it is my job to oversee 
the DNDO, and I am anxious to see that we get the next 
generation of radiation portal monitors deployed as quickly as 
possible.
    At the same, of course, we have to make sure that we are 
being good stewards of taxpayer dollars and we are getting what 
we pay for and that these ASP detectors are markedly better 
than the first generation detectors that have already been 
deployed.
    This program, obviously, is far too important to fail and 
we, therefore, have to ensure that the review process that is 
ongoing right now is conducted with the highest levels of 
security and scrutiny and due diligence.
    I know that you and Mr. Oxford were at a hearing this 
morning to discuss this topic before the Energy and Commerce, 
one of the subcommittees there. I have a few questions that I 
would like to ask you about this critical program.
    First, could you please explain the certification process 
required by the secretary? I wanted to delve into that a bit.
    And, also, can you give us an update on the independent 
review team that you commissioned? I understand that Pete Nanos 
of DTRA was initially asked to head that effort, but then you 
requested John Higby from the Defense Acquisition University 
lead the charge.
    I understand that Mr. Higby is no longer taking the lead. 
So my question is who has been named to head the review team 
now and why were the first two people replaced?
    In addition, are the rest of the team members the same? And 
when will the review team be done with their review?
    Mr. Schneider. Okay, let's start with your first question 
about the certification.
    Mr. Langevin. Yes, the certification process.
    Mr. Schneider. The certification is required by some 
legislation, I forget whether it is the Appropriations Act or 
not, but it basically requires the secretary, Chertoff, to 
certify that the performance of the advanced spectroscopic 
portal, ASP, that its performance is significantly--I think the 
correct words in the legislation are either significantly or 
substantially better than the existing radiation portal 
monitors, which is the polyvinyl toluene sensors.
    So he is required by law to make a certification. The 
process that we have in place is, as you are very much 
familiar, Congressman, is a whole series of testing that 
started with contractor tests, specifically, Northwest tests, 
various types of level one and level two, I guess level three 
testing, all the way up to now what we have, these ASP monitors 
at several CBP ports for field evaluation.
    So the idea is that when the Customs and Border Protection, 
who is the user, the customer, of the ASP is satisfied that 
they have acquired enough data to make a recommendation to the 
secretary, at that point in time, our plan is to go forth with 
a recommendation--that recommendation could be positive or 
negative, depending upon what the consolidated test data lays 
out--for the secretary to make a certification.
    That is a separate and distinct act from a decision on the 
part of the department to go into full scale production and 
deployment. So that is the sequence and that is required by 
law.
    For the timing, let me just--it is convenient here. 
Originally, there was a rough estimate that the results of the 
testing would be made available to the secretary, I think, 
sometime around September 21. Based on a meeting that I had 
with the head of DNDO and the deputy commissioner from border 
protection, the conclusion at that point in time, based on a 
recommendation from the deputy commissioner, was that he wanted 
an additional 2 months of testing, roughly starting around the 
first week or so of September, after an updated software load 
was made to the system.
    Mr. Langevin. The secretary of the director of DNDO?
    Mr. Schneider. The deputy commissioner for CBP.
    Mr. Langevin. Okay.
    Mr. Schneider. Again, as I said, he is the customer or the 
operational user.
    Mr. Langevin. I understand.
    Mr. Schneider. He specifically requested an additional 2 
months of field validation testing once this updated software 
load was made. The estimate, and I forget the exact date of 
that conversation, but the updated software was supposed to 
delivered I think roughly around the first or so of September.
    So if you go forward roughly 2 months, he wanted at least 
through the end of October, early November to get additional 
field validation testing. And so, obviously, any schedules that 
might have been predicated on the third week in September 
secretarial decision have been pushed to the right.
    We are right now in the process of trying to figure out 
what our schedules will be, either for the completion of the 
field validation testing going forth to the secretary for 
secretarial certification, and then what would be our action 
regarding convening what we call an investment review board, 
which is the board the department uses for making major 
investment decisions, to consider whether or not the department 
is willing to spend the bucks to actually go into full 
production on these systems.
    So that is the sequence on that.
    With regard to the independent review, frankly, I am 
absolutely amazed about all of the external scrutiny that I 
have been given about the external review. It originated with 
me. It was my idea. It was based on my review of the ASP 
program in late July, my review of the GAO documentation.
    I immediately realized there was a difference of views, if 
you will, regarding testing, the amount of testing that has 
been accomplished, the amount of testing that will be 
accomplished, the issue about sources used, sources not used.
    And I come from a world in the Department of Defense where 
it is not an uncommon process when you have to make a major 
decision like that to go out and get some independent sets of 
eyes. So that is what I did.
    I went to see the secretary. I said, ``We need to get an 
independent group of people,'' independent in terms of 
independent from DNDO, and that is what I did.
    Do you want me to finish up?
    Dr. Nanos, nuclear physicist, Ph.D., and I asked him to 
assemble a team. This was not directed to be a DTRA study. 
Rather, he, as an individual, associate director, put together 
a team of experts and go do this study.
    As it turned out, subsequently, he had to withdraw. It was 
based on him and his management. I just accepted it at face 
value. I was, frankly, in a schedule press, given the fact that 
I was working to what was then a September 21 deadline.
    We have a cooperate arrangement with Defense Acquisition 
University. We work very closely with them. They do this type 
of work. I asked Mr. Higby do this. He agreed and we started to 
spin up.
    It was shortly, around last Wednesday, when it became 
evident to me that he was a possible contender for a job in 
DHS, that I decided to remove him.
    I might point out that there was no conflict of interest. 
He had no financial interest. He had no technology interest. In 
fact, after the hearing this morning, the staff of E&C told me 
they really liked the fact that he was the guy.
    I was gun shy, quite frankly, of all the external scrutiny 
I have been given and, in some cases, you can say the 
micromanagement of this effort, and I elected to not take a 
chance and removed him.
    I subsequently, on Friday morning, decided to take the 
number two individual at the Homeland Security Institute. The 
Homeland Security Institute is the department's federally-
funded research and development center.
    This is the kind of work that FFRDCs do. They do it for the 
Army, they do it for the Navy, they do it for the Air Force, 
they do it for the FAA. So that is how I settled on Mr. 
Thompson and he is up and running.
    Ms. Sanchez. Thank you, Mr. Schneider.
    Mr. Rogers has a quick question for you all.
    Mr. Rogers. Thank you very much. I want to revisit this 
consolidation of oversight issue.
    As you all know, the 9/11 commission recommended that we 
develop a single point of principal oversight in each chamber 
for the department.
    There have been several references made today that Mr. 
Schneider is in his 9th month in his current job, 34-35 weeks 
you have been with us, and I think this is the third time you 
have testified before the committee when I have been in here.
    How many times since you have been in your position have 
you testified before Congress?
    Mr. Schneider. I have to check, but I think it is about 11. 
I think this is the 11th hearing. I am really not sure.
    Mr. Rogers. So more than once a month since you have been 
here.
    Mr. Schneider. Yes. And today I was basically grilled for 3 
hours this morning.
    Mr. Rogers. How much time do you put into preparing for 
this testimony each time?
    Mr. Schneider. It depends, Congressman. If it is testimony 
that is directly relevant to my main line of business, not a 
lot. I had to spend a tremendous amount of time for the hearing 
this morning, and the main reason is I found out on I think it 
was either Wednesday night or Thursday morning, I had to get my 
testimony written by Friday.
    I wrote my testimony for that hearing. I had to go read a 
tremendous amount of information over the weekend so I could 
get prepared.
    So some of them require more than others. I had to testify 
twice in front of the Small Business Committee, frankly, once 
down in New Orleans at a field hearing, once up here. And while 
we respectfully tried to get out of that hearing, and the 
reason was they were really more interested--I mean, the 
subject of the hearing was, operationally, what happened with 
contracting on the ground in New Orleans.
    Well, I am not directly responsible for that. And we 
offered several other people who were much closer to that, and 
it was denied on every attempt and, quite frankly, there was 
pretty much of an inference that if I didn't testify, that I 
would be subpoenaed.
    For hearings like that, where I am not a small business 
expert, by law, the small business director works directly for 
the secretary, I spent an inordinate amount of time getting 
ready for those two particular hearings.
    So it varies.
    Mr. Rogers. I note in the chart that we submitted for the 
committee there are 86 full committees and subcommittees that 
have some oversight jurisdiction.
    Mr. Walker, in your testimony or in answer to one of your 
questions, you made reference to the fact that there are a lot 
of people trying to get information from DHS simultaneously, 
and I think you made that statement in reference to the fact 
that they have been a little slow getting responses to you, but 
you acknowledge that is the reason why.
    Tell me how much, in your opinion, based on your analysis, 
your recent analysis of the department, they would be able to 
better deal with their tasks if they didn't have 86 committees 
and subcommittees of Congress asking them for information.
    Mr. Walker. First, I would say, Congressman Rogers, as you 
know, we work for the institution of the Congress. So the 
extent they cooperate with us, our information is made 
available to everybody in the Congress. So there is a benefit 
to cooperate with us.
    Secondly, there is absolutely no question that they could 
achieve a lot more focus on mission and improve responsiveness, 
should they so desire, if they didn't have as many players they 
had to deal with.
    Now, as you know, I work for the Congress, and the 
Congress, frankly, is not a model of efficiency. The Congress 
is a lag indicator on efficiency, and I think that there is a 
need for the Congress to look at its alignment and see whether 
or not it is properly aligned to best discharge its 
constitutional responsibilities for the 21st century, and this 
is clearly one area that deserves additional consideration.
    Mr. Rogers. Well, I agree and that is the reason I bring 
the issue up. I know the chairman of this committee and the 
ranking member of this full committee have both agreed that we 
have got to follow through on the 9/11 commission's 
recommendation that we consolidate oversight.
    Obviously, this is the committee that should have primary 
jurisdiction on the authorizing side in this chamber and then 
similarly in the Senate. But it has taken far too much time, in 
my opinion, from the department's management to deal with all 
the various committees that have jurisdiction over them and it 
takes time away from their ability to do their job.
    But with that, I will be quiet and thank the chairlady for 
the time.
    Ms. Sanchez. Thank you, Mr. Rogers.
    And now I will recognize Ms. Jackson Lee of Texas for 5 
minutes.
    Ms. Jackson Lee. Thank you very much. And let me thank 
Secretary Schneider and certainly our busy head of the GAO. I 
think we have seen each other a number of times. So I think you 
have equal opportunity to be in front of members of Congress.
    Why don't I follow up on the line of questioning, Mr. 
Walker, that my good friend from Alabama has just begun with 
and indicate that I believe this committee sent a letter asking 
for an assessment by the GAO of how we could be more efficient 
or the negative impact of the extensive jurisdictional maze 
that this particular department is subjected to.
    So let me try to stand in the place of that letter and have 
you expand just a little bit more.
    I do understand that you are not only working for Congress, 
but you are a creature of Congress, to a certain extent. But 
you have been in front of committees when we have applauded 
you, because, rightly so, a parent created a child, but in many 
instances, it may be important for either one to chastise the 
other one based upon their knowledge.
    I, frankly, believe that it is not a question of 
sensitivity. It is a question, if you will, of undermining the 
security of this nation.
    This is, in essence, an abomination. The idea of the 
Homeland Security Department, of which I was a member of the 
select committee, was to provide synergism or consensus or 
energy around a certain point.
    So I would ask you not maybe the direct question of my 
colleague, but I want to know the negative impact on security 
you can predict just by looking at this maze.
    You have indicated what that might suggest. But what brings 
about a better ordering of the department, the ability to have 
limited entities of which it is subjected to oversight, because 
I don't want to abdicate and give up any oversight 
responsibilities.
    I certainly applaud this committee and all of the other 
committees as we have changed leadership in this House that 
have engaged in its oversight responsibilities. But tell me the 
negative impact on, if you will, security with this kind of 
structure in place.

       Prepared Statement of the Honorable Sheila Jackson-Lee, a 
           Representative in Congress from the State of Texas

``We Must Keep DHS Accountable For Potential Security Gaps in Order to 
                       Fully Protect Our Nation''

    ``Under the Homeland Security Act of 2002, The Department of 
Homeland Security and its Secretary are responsible for preventing and 
deterring terrorist attacks and responding to threats and hazards to 
the nation,'' stated Congresswoman Sheila Jackson Lee. ``In examining 
the performance of the department, several pressing and critical issues 
have surfaced.''
    In addition to the high vacancy rate in the upper management 
position, an issue of particular concern continues to be the number of 
important programs that have not met their deadlines,'' added 
Congresswoman Sheila Jackson Lee. ``The recent government 
Accountability Office findings concluded that the Department met less 
than 25%, or only five of the twenty-four emergency preparedness and 
response performance expectations. We must make sure that the 
department in working at the highest level of efficiency to protect 
this nation.''
    As Chair of the House Homeland Security Subcommittee on 
Transportation Security and Infrastructure Protection, I will be 
working to help make sure that the Department of Homeland Security 
continues to operate at the highest level of proficiency and efficiency 
to protect the citizens of the United States of America.

    Mr. Walker. Well, first, this schematic is probably speaks 
loudly. The only schematic that I have seen that is more 
troubling is the financial management systems at the Department 
of Defense, which are also a mess.
    I think the bottom line is the Congress needs to 
consolidate and integrate its responsibilities with regard to 
the Department of Homeland Security, not abdicate. And if you 
have fewer----
    Ms. Jackson Lee. Excellent.
    Mr. Walker. --if you have fewer that are focused, I think 
that, A, you will be able to discharge your constitutional 
responsibilities more efficiently and effectively and, 
secondly, it would allow more time for the department to be 
able to accomplish its mission.
    But it would be impossible for me to tell you with any 
degree of reliability, consistent with GAO standards, as to 
exactly how much more secure that would make the country.
    Ms. Jackson Lee. Well, you have already said it is a mess 
and, certainly, messes cannot ensure security for any nation. 
And so I think we do have a challenge here.
    But what you did say is that Congress needs to focus and 
that it does impede and can possibly impede the security of 
this nation only because of the maze which we are seeing here. 
Oversight is our responsibility.
    Let me, Mr. Schneider, go to you and recognize that you 
have been here 9 months, but also recognize that one of the 
elements of criticism of the GAO was the fact that we have not 
completely hired all of those that we need to hire.
    Let me quickly ask you these questions.
    We have heard, for a very long period of time, we have 
gotten $250 million committed to the US-VISIT program since 
2003. We have asked for a functioning biometric exit system.
    In June, the GAO testified before the committee that the 
prospects were, I am paraphrasing, ``strange, at best, unclear, 
absent.''
    Can you tell me what is happening with that exit program, 
the biometric exit program? And let me give you this other, 
quickly. You indicated you just got here in January. We asked 
you about the TWIC card just last week, on one of your many 
visits to Congress, and you basically said, ``I don't know.''
    That is frightening. At least we have captured this from 
your testimony. You have a chance to clear up the record.
    How much money has the department spent to date on the TWIC 
initiative? You have got employees across America frightened 
and waiting for some kind of answer. And how much money will 
you need to spend to complete its rollout?
    Mr. Schneider. First off, on the TWIC, at the hearing in 
front of the Senate, very specifically, Senator Collins asked 
me a series of questions on TWIC. I gave her what I thought was 
a pretty comprehensive status of the TWIC program in terms of 
where we are, in terms of the notice of the proposed rule.
    I explained in a fair amount of detail the technical 
problems that we were having with the card. I explained the 
fact that I chair a biweekly meeting that goes into 
excruciating detail on the progress of TWIC, that I thought we 
were just at the point of having all the----
    Ms. Jackson Lee. When do you project the rollout?
    Mr. Schneider. My next meeting is Friday and our plan is, 
shortly, on the assumption that we complete successfully the 
N10 system test this week or next week, it will be shortly 
after the first part of October in the Port of Wilmington.
    That is predicated on----
    Ms. Jackson Lee. The first of October?
    Mr. Schneider. Yes.
    Ms. Jackson Lee. That is a big announcement.
    Mr. Schneider. Well, I told her that I would come back and 
see her with the details. One of the things that we do, quite 
frankly, is sometimes we announce these dates way in advance of 
when we probably should to have confidence in hand.
    We have deliberately not published any dates, because 
publishing a date and then going through an end-to-end 
verification test and then finding out you have problems you 
have to fix.
    During the hearing, I explained some of the problems we 
were having with getting the software to make the printers 
work. We had problems with 1-D barcodes. We had all kinds of 
problems and the fact of the matter is we believe we have most 
of those technical problems in hand.
    So we were reluctant to publish a date, raise the level of 
expectations and then find out we are off by a week or so.
    So that is why we had deliberately not done that. I 
committed to the Senator and I will commit to you that----
    Ms. Jackson Lee. Thank you.
    Mr. Schneider. ----after my next meeting, I will come and 
go through the details, explain to you where we are and the 
detailed schedules.
    Ms. Jackson Lee. Madam Chair, can he answer the biometric 
question he did not answer?
    Mr. Secretary?
    Mr. Schneider. Yes. I know we have a substantial amount of 
activity. I cannot provide you right here and now the details 
of how we are handling exit.
    I realize it is an issue. I know we have been asked lots of 
questions. I am not aware of the details.
    Ms. Jackson Lee. You can come back to this committee or 
provide that information back.
    Mr. Schneider. Yes. I will gladly provide that information 
to you.
    Ms. Jackson Lee. I yield back. Thank you.
    Ms. Sanchez. I thank the gentlewoman from Texas.
    I thank Comptroller General Walker and Undersecretary 
Schneider for their valuable testimony and the members for 
their questions.
    And as usual, the members of the committee may have 
additional questions for you and we will ask that you respond 
quickly to them in writing.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 5:10 p.m., the committee was adjourned.]


         Appendix I:  Congressional Committee Oversight of DHS

                              ----------                              

Part I. In the 110th Congress, the following Congressional committees 
and subcommittees asserted DHS jurisdiction by holding hearings or 
otherwise exercising formal oversight activity. Accurate as of August 
2007.

                      U.S House of Representatives

        1.  House Agriculture Committee

        2.  House Armed Services Committee

        3.  House Appropriations Committee
                4.  Homeland Security Subcommittee

                5.  Select Intelligence Oversight Panel Subcommittee

        6.  House Budget Committee

        7.  House Energy and Commerce Committee
                8.  Commerce, Trade and Consumer Protection 
                Subcommittee
                9.  Environment and Hazardous Materials Subcommittee
                10. Health Subcommittee
                11. Oversight and Investigations Subcommittee
                12. Telecommunications and the Internet

        13. House Financial Services Committee
                14. Oversight and Investigations
                15. Housing and Community
        16. House Foreign Affairs Committee
                17. Europe
                18. Africa and Global Health

        19. House Homeland Security Committee
                20. Border, Maritime and Global Counterterrorism 
                Subcommittee
                21. Emergency Communications, Preparedness, and 
                Response
        Subcommittee
                22. Emerging Threats, Cyber security, and Science and 
                Technology
        Subcommittee
                23. Intelligence, Information Sharing and Terrorism 
                Risk Assessment
        Subcommittee
                24. Management, Investigations, and Oversight 
                Subcommittee
                25. Transportation Security and Infrastructure 
                Protection Subcommittee

        26. House Judiciary Committee
                27. Crime, Terrorism & Homeland Security
                28. Immigration, Citizenship, Refugees, Border 
                Security, and International
        Law
                29. Commercial and Administrative Law

        30. House Natural Resources Committee
                31. Fisheries, Wildlife, and Oceans Subcommittee
                32. National Parks, Forests, and Public Lands 
                Subcommittee
                33. Water and Power Subcommittee

        34. House Oversight and Government Reform Committee
                35. Government Management, Organization and Procurement
                36. Domestic Policy

        37. House Permanent Select Committee on Intelligence
                38. Intelligence Community Management
                39. Terrorism, Human Intelligence, Analysis, and 
                Counterintelligence

        40. House Science and Technology Committee
                41. Investigations and Oversight Subcommittee
                42. Technology and Innovation Subcommittee

        43. House Small Business Committee

        44. House Transportation and Infrastructure Committee
                45. Aviation Subcommittee
                46. Coast Guard and Maritime Transportation
                47. Economic Development, Public Buildings and 
                Emergency Management
        Subcommittee
        48. House Ways and Means
                49. Trade Subcommittee

                              U.S. SENATE

        50. Senate Agriculture, Nutrition and Forestry

        51. Senate Appropriations Committee
                52. Homeland Security Subcommittee
                53. Transportation, Housing and Urban Development, and 
                Related Agencies
        Subcommittee
                54. Commerce, Justice, Science, and Related Agencies 
                Subcommittee

        55. Senate Armed Services Committee

        56. Senate Banking, Housing and Urban Affairs Committee

        57. Senate Budget Committee

        58. Senate Commerce, Science and Transportation Committee
                59. Interstate Commerce, Trade, and Tourism
                60. Oceans, Atmosphere, Fisheries, and Coast Guard 
                Subcommittee
                61. Surface Transportation and Merchant Marine 
                Infrastructure, Safety, and
        Security
                62. Science, Technology and Innovation

        63. Senate Energy and Nature Resources Committee
                64. Public Lands and Forests Subcommittee

        65. Senate Environment and Public Works Committee
                66. Transportation Safety, Infrastructure Security, and 
                Water Quality
        Subcommittee

        67. Senate Finance Committee

        68. Senate Foreign Relations Committee

        69. Senate Health, Education, Labor and Pensions Committee

        70. Senate Homeland Security and Governmental Affairs Committee
                71. Disaster Recovery Subcommittee
                72. Federal Financial Management, Government 
                Information, Federal
        Services, and International Security Subcommittee
                73. Oversight and Government Management, the Federal 
                Workforce, and the District of Columbia Subcommittee
                74. Permanent Subcommittee on Investigations
                75. State, Local, and Private Sector Preparedness and 
                Integration
        Subcommittee

        76. Senate Judiciary Committee
                77. Immigration, Border Security and Citizenship 
                Subcommittee
                78. Terrorism, Technology and Homeland Security 
                Subcommittee
                79. Human Rights and the Law Subcommittee
                80. Senate Small Business and Entrepreneurship 
                Committee

        81. Senate Select Committee on Intelligence

        82. Senate Small Business Committee

        83. Senate Special Committee on Aging

Part II. In the 109th Congress, the following Congressional committees 
and subcommittees asserted DHS jurisdiction by holding hearings or 
otherwise exercising formal oversight activity.

                     U.S. HOUSE OF REPRESENTATIVES

        1.  House Armed Services Committee
                2.  Terrorism, Unconventional Threats & Capabilities 
                Subcommittee

        3.  House Appropriations Committee
                4. House Homeland Security Subcommittee

        5.  House Education & the Workforce Committee
                6.  21st Century Competitiveness Subcommittee
                7.  Select Education Subcommittee

        8.  House Energy & Commerce Committee
                9.  Telecommunications and the Internet Subcommittee
                10. Oversight and Investigations Subcommittee

        11. House Financial Services Committee
                12. Domestic & International Monetary Policy, Trade & 
                Technology Subcommittee
                13. Housing & Community Opportunity Subcommittee
                14. Financial Institutions and Consumer Credit 
                Subcommittee

        15. House Government Reform Committee
                16. Federal Workforce & Agency Organization 
                Subcommittee
                17. National Security, Emerging Threats & Intl 
                Relations Subcommittee
                18. Criminal Justice, Drug Policy & Human Resources 
                Subcommittee
                19. Government Management, Finance & Accountability 
                Subcommittee
                20. Regulatory Affairs Subcommittee

        21. House Homeland Security Committee
                22. Emergency Preparedness, Science & Technology 
                Subcommittee
                23. Intelligence, Information Sharing, and Terrorism 
                Risk Assessment Subcommittee
                24. Economic Security, Infrastructure Protection, & 
                Cyber security Subcommittee
                25. Management, Integration & Oversight Subcommittee
                26. Prevention of Nuclear & Biological Attack 
                Subcommittee
                27. Permanent Subcommittee on Investigations

        28. House International Relations Committee
                29. Africa, Global Human Rights, & International 
                Operations Subcommittee
                30. International Terrorism and Nonproliferation 
                Subcommittee
                31. Western Hemisphere Subcommittee

        32. House Judiciary Committee
                33. Commercial & Administrative Law Subcommittee
                34. Constitution Subcommittee
                35. Crime, Terrorism & Homeland Security Subcommittee
                36. Immigration, Border Security & Claims Subcommittee

        37. House Permanent Select Committee on Intelligence
                38. Terrorism, Human Intelligence, Analysis & 
                Counterterrorism Subcommittee
        39. House Resources Committee
                40. Fisheries & Oceans Subcommittee
                41. National Parks Subcommittee
                42. Water & Power Subcommittee

        43. House Science Committee

        44. House Small Business Committee
                45. Regulatory Reform & Oversight Subcommittee
                46. Workforce, Empowerment, & Government Programs 
                Subcommittee

        47. House Transportation & Infrastructure Committee
                48. Aviation Subcommittee
                49. Coast Guard & Maritime Transportation Subcommittee
                50. Economic Development, Public Buildings & Emergency 
                Management Subcommittee
                51. Highways, Transit & Pipelines Subcommittee

        52. House Veterans' Affairs Committee

        53. House Ways & Means Committee
                54. Oversight Subcommittee
                55. Social Security Subcommittee
                56. Trade Subcommittee

                              U.S. SENATE

        57. Senate Agriculture, Nutrition, and Forestry Committee

        58. Senate Appropriations Committee
                59. Senate Homeland Security Subcommittee

        60. Senate Armed Services Committee

        61. Senate Banking, Housing & Urban Affairs Committee

        62. Senate Commerce, Science & Transportation Committee

                63. Fisheries & the Coast Guard Subcommittee
                64. National Ocean Policy Study Subcommittee
                65. Disaster Prevention & Prediction Subcommittee
                66. Trade, Tourism, & Economic Development Subcommittee

        67. Senate Energy & Natural Resources Committee
                68. Energy Subcommittee

        69. Senate Environmental and Public Works Committee
                70. Transportation & Infrastructure Subcommittee

        71. Senate Finance Committee

        72. Senate Foreign Relations Committee
                73. East Asian and Pacific Affairs Subcommittee
                74. International Operations & Terrorism Subcommittee
                75. Western Hemisphere, Peace Corps & Narcotics Affairs 
                Subcommittee

        76. Senate Health, Education, Labor, & Pensions (HELP) 
        Committee
                77. Bioterrorism Preparedness & Public Health 
                Preparedness Subcommittee

        78. Senate Homeland Security & Governmental Affairs Committee
                79. Federal Financial Management, Government 
                Information & International Security Subcommittee
                80. Oversight of Government Management, Federal 
                Workforce & DC Subcommittee
                81. Permanent Subcommittee on Investigations

        82. Senate Judiciary
                83. Immigration, Border Security & Citizenship 
                Subcommittee
                84. Terrorism, Technology & Homeland Security 
                Subcommittee

        85. Senate Select Committee on Intelligence

        86. Senate Special Committee on Aging


            Appendix II:  Additional Questions and Responses

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Questions from the Honorable Bennie G. Thompson, Bennie G. Thompson, 
                chairman, Committee on Homeland Security

             Responses from the Honorable Paul A. Schneider

    Question 1.: What new measures are being taken by the Department to 
ensure that Aviation Security Inspectors (ASIs) have the resources they 
need to increase the number of on-site inspections and ensure more 
visual documentation?
    Is the Department considering amending the Annual Aviation Plan in 
order to allow more on-site inspections of air carriers?
    Response: In fiscal (FY) 2007, the Transportation Security 
Administration's (TSA) air cargo program deployed over 100 additional 
vehicles at 51 airports to support the 300 Transportation Security 
Inspectors-Cargo (TSI-Cs). Additionally, TSA has initiated the hiring 
of 150 cargo inspectors who are to be deployed by July 2008. Vacancy 
announcements for 75 of the new positions have already closed and the 
selection process has begun. These additional resources will be 
deployed to high-volume airports and to those airports where cargo 
operations pose a higher degree of risk. Supplemental funds received in 
fiscal year 2007 will support the addition of 85 TSA proprietary canine 
teams. The teams will be led by a TSI-C Canine Handler and will 
concentrate their efforts on screening air cargo to be transported on 
passenger aircraft. As outlined in the fiscal year 2008 Regulatory 
Activities Plan, inspectors have been directed to increase inspection 
activity through observation techniques and interviewing, as opposed to 
document review.

    Question 2.: Is the Department revisiting TSA's regulations and 
guidelines within their security programs and making the necessary 
changes in language in order to do away with their misinterpretation?
    If so, what process is being implemented in the rewriting of these 
guidelines and regulations?
    Is there an advisory group in place that can provide theoretical 
and practical experience when rewriting these guidelines?
    Once these changes are made, what are the Department's plans to 
ensure proper training is implemented and enhance communication 
channels between ASIs and TSA?
    Response: The Transportation Security Administration (TSA) is 
making revisions to current regulations in order to: (1) make 
substantive changes to the current regulations to enhance security 
requirements, and (2) clarify other parts of the regulations based on 
industry feedback to enable regulated parties to more easily understand 
and adhere to TSA security requirements. TSA utilizes the Aviation 
Security Advisory Committee (ASAC) Air Cargo Working Group, which 
represents the regulated parties, to discuss areas of the regulations 
that might be unclear or might cause significant operational impacts. 
Additionally, TSA has established a Compliance Advisory Group comprised 
of senior, experienced Transportation Security Inspectors (TSIs) who 
meet quarterly to receive and offer recommendations on procedural 
items. TSA recognizes the importance of implementing a security regime 
that provides for the highest security standards without adversely 
impacting the flow of commerce, and TSA continues to partner with 
industry to make sure regulations and guidelines issued meet these twin 
goals. Drafted changes to the security programs are due for industry 
comment.
    As security program changes are made, TSA will ensure TSIs are 
knowledgeable on the updated procedures through training. TSA will 
continue to provide guidance to the TSIs through training modules and 
bi-weekly conference calls. TSA is committed to compiling questions and 
answers from the field and posting them to the employee web board in an 
effort to maintain consistency in the application of security 
procedures.

    Question 3.: What is the Department doing to address the concerns 
raised by TSA's PARIS Advisory Group in 2006? Please provide a progress 
report timeline describing any steps taken to address the weaknesses in 
PARIS as a monitoring and reporting tool.
    Response: Several steps have already been taken to implement 
recommendations directed at improving the effectiveness and 
functionality of the Performance and Results Information System (PARIS) 
program. First, resources were identified in fiscal year (FY) 2007 to 
transition the information technology away from a highly customized 
application to one that is capable of accommodating commercial off-the-
shelf components. In the latter part of the fiscal year, an information 
technology proposal was presented to the Agency's Office of Chief 
Information Officer to enable the program administrators to 
dramatically change and improve the direction of the current 
application. That proposal will be submitted through the department's 
approved information technology acquisition process in fiscal year 
2008.
    Next, the Office of Security Operations, Compliance Division, has 
committed to assign two additional full-time personnel in fiscal year 
2008 to augment the headquarters-based PARIS staff. This much needed 
support will increase the administrative oversight and staff support 
required to supervise and manage this application serving approximately 
more than 3,000 end users within the Agency.
    Finally, in fiscal year 2008, additional quality assurance 
procedures will be implemented to support managers and supervisors who 
review and approve PARIS records, and new program guidance and 
additional technical training will be made available to PARIS users. 
This guidance will inform end users of the steps required to accurately 
enter and retrieve data from the application, over and above the 
current support that is now available. To improve program 
communications, periodic technical presentations via telephone and 
online conferencing will be conducted with the field work force to 
encourage information sharing, collaboration, and assist in identifying 
program and process improvements.

    Question 4.: In an effort to secure our nation's borders, we must 
know who enters and exits this country, and, slowly, we are 
implementing systems to accomplish this goal. Nonetheless, I am deeply 
troubled by occurrences of special interest aliens attempting to enter 
our country with little follow up investigative activities being 
conducted. More specifically, I suggest that a thorough investigation 
should be conducted to determine if these individuals are part of a 
larger criminal or smuggling organization and most importantly, are 
they associated with any terrorist organization. Furthermore, the 
individuals should be run through all law enforcement databases to 
determine if they are subjects/targets of other investigations. A new 
report last week indicated a considerable number of special interest 
aliens have illegally crossed the border in the last year.
    Having said that, can you explain to us the steps that would be 
taken should a CBP Officer or Border Patrol agent encounter a special 
interest alien, for example, from Syria or Pakistan?
    Who conducts the investigation?
    Who insures that the information is vetted through other federal 
law enforcement agencies?
    Do CBP Officers and Border Patrol agents have a security clearance 
and statutory authority that will allow them to investigate these 
activities?
    Please describe any policies and /or procedures as they relate to 
the interdiction and handling of special interest aliens.
    Response: This response is for Official Use Only and Law 
Enforcement Sensitive.
    Customs and Border Protection (CBP) employs a layered, risk-based 
approach to our security and facilitation efforts at our Nation's 
borders.
    CBP Officers and Border Patrol Agents are keenly aware and kept 
informed of continuing and emerging threats posed along our Nation's 
borders.
    CBP has implemented policies to specifically address encounters 
with individuals posing possible threats of terrorism. Policy requires 
Officers and Agents to immediately notify the CBP National Targeting 
Center--Passenger (NTC-P), the centralized coordination point for all 
of CBP's anti-terrorism efforts. The NTC-P conducts a full vetting to 
include notification to Immigration and Customs Enforcement, who have a 
full time Liaison Section assigned to the NTC-P which provides 24 hour 
notification to ICE JTTF in the field and immediate coordination on all 
Terrorist Identities Datamart Environment (TIDE) encounters. Other 
agencies are also notified including the FBI Terrorist Screening 
Operations Unit (TSOU) who provides case agent instructions back to the 
NTC to further identify any possible threat or connection to terrorism. 
The local CBP Officer or Border Patrol Agent designated as a Counter-
Terrorism Response (CTR) Officer is responsible for coordinating with 
NTC and other law enforcement agencies, and for ensuring that a full 
inspection, document review and questioning of suspect persons takes 
place.
    CBP's NTC-P has several programs whose focus is to identify 
potential threats to national security prior to the individual arriving 
in the United States. In some instances, NTC-P has coordinated with 
foreign governments to deny boarding to the passenger thereby extending 
our borders. Some of these programs include:
        --Immigration Advisory Program (IAP). The IAP review team at 
        the NTC-P has the responsibility of utilizing airline 
        reservation systems for passengers scheduled to depart aboard 
        flights destined to the United States from the overseas IAP 
        locations prior to boarding. Targeting efforts continue to 
        focus on those passengers who have the highest probability of 
        matching TIDE, TSA No-Fly, Visa Revocation, and Non-U.S. Lost/
        Stolen Passport records.
        --As a result of the Transportation and Security Agency (TSA) 
        Aviation Security Directive Number: SD 1544-06-03C, CBP-NTC-P 
        initiated Operation Mirage II in response to the arrests of 
        terrorist suspects in the UK who allegedly planned to carry-out 
        suicide bombings on US-bound commercial aircraft. This on-going 
        operation requires air carriers to provide CBP-NTC-P with 
        complete passenger manifests before the flight departs from the 
        UK. The air carriers are notified if any passenger off-loads 
        are required before the flight is given permission to depart.
        --CBP initiated Intelligence Driven Special Operations (IDSO) 
        in response to specific ``threat streams'' identified during 
        intelligence analysis or Special Interest Aliens. Each IDSO 
        identifies specific criteria as applied to a ``threat stream''. 
        CBP field offices are required to contact NTC-P when travelers 
        matching IDSO criteria are encountered. NTC-P conducts research 
        on each traveler in both classified and unclassified systems to 
        determine if the subject posed a threat to national security.
    All CTR Officers undergo initial and recurring special training 
related to their specific duties. This training includes the ability to 
determine if an individual may pose a possible risk for terrorism, 
based on: suspicious travel to special interest countries; questionable 
identities and/or travel documents; suspicious documents, brochures or 
other written materials; suspicious itineraries or travel routes; and/
or unusual items contained in the individual's baggage or vehicle. This 
is particularly important when aliens from special interest countries 
falsely claim to be Mexican (or from another non-special interest 
country).
    Some traits or indicators that may indicate a basis to question an 
alien's claim of citizenship from a non-special interest country are 
explained below.
        <bullet> Observation regarding the style and type of clothing, 
        mannerisms and speech patterns and including physical features.
        <bullet> Search of the subject's person and belongings for any 
        type of identity and/or travel documents to corroborate a story 
        or identify potential risk.
        <bullet> Physical evidence on subject's person or in subject's 
        belongings that list phone numbers and addresses, foreign or 
        domestic, that would lead and Officer or an Agent to believe 
        that the alien is from a special interest country.
        <bullet> Responses to certain questions (for example, regarding 
        certain facts about Mexico) that are unlikely to be answered 
        correctly by an alien from a special interest country.
        <bullet> Biometric information, such as fingerprints and 
        digital photographs that are checked and enrolled through the 
        Department of Homeland Security's (DHS) United States Visitor 
        and Immigrant Status Indicator Technology (US-VISIT) and 
        Automated Biometric Identification System (IDENT) as well as 
        the FBI's Integrated Automated Fingerprint Identification 
        System
    <bullet> (IAFIS) where alien's fingerprints are additionally 
checked to detect any previous criminal history or outstanding 
warrants.
    The CTR Officer should use questioning techniques and observational 
behavioral analysis. At a minimum, the CTR interview is required to 
establish and properly record the following: purpose and intent of 
travel; length of visit; persons visited or to be visited; places 
visited abroad, or to be visited in the United States; sponsoring 
organization for the trip, or means used to pay for the trip; 
affiliations with educational or professional institutions; value of 
cash and other monetary instruments in the traveler's possession; and 
the traveler's next destination.
    With respect to security clearances, a select group of CBP Officers 
and managers assigned to counterterrorism duties and trained for those 
specific responsibilities have been vetted for Secret or higher 
clearances as appropriate. And although many Border Patrol Agents have 
security clearances of varying levels up to Top Secret, most agents 
have a standard Background Investigation (BI) which entitles them to 
view and handle Law Enforcement Sensitive or For Official Use 
Information Only material.
    Most CBP Officers do not have investigative responsibilities. 
Instead, their singular focus is on the inspection of individuals 
arriving at the ports of entry and detection of risks to national 
security or violations of Federal laws administered by CBP. When a 
person designated as a Special Interest Alien (SIA) presents himself 
for admission at a US port of entry, he will be referred to secondary 
inspection for additional examination and interview. Specifically, 
SIA's are processed in the National Security Entry Exit Registration 
System (NSEERS), which includes document verification and an interview 
regarding purpose of travel, destination, and other pertinent facts. 
SIA's are also fingerprinted, registered in, and queried against our 
system of law enforcement biometric databases (including ENFORCE/IDENT 
and IAFIS) and any documents or possessions of interest are examined 
and, where appropriate, copied for follow-up by investigative entities. 
Appropriate notifications are also made when an SIA, or other 
individual whom CBP Officers determine may pose a risk to national 
security, are encountered. Such notifications may be to Special Agents 
with US Immigration and Customs Enforcement and the Joint Terrorism 
Task Force (JTTF), the National Targeting Center (NTC), and other 
Federal, State, or local authorities with a vested or possible interest 
in the alien.
    The FBI's TSOU and CBP's NTC-P will run the biographical 
information through a multitude of databases and watch lists to 
determine whether the alien has any nexus to terrorism or is of any 
investigative interest to other agencies. If a subject is determined to 
be a positive match to the terrorist watch list or is of significant 
interest, NTC immediately notifies ICE NTC who provides direct 
notification to ICE JTTF in the field for response and appropriate 
coordination with CBP and other agencies as appropriate. These 
notifications are made on a 24 hour-a-day, 7 day-a-week basis. If the 
JTTF determines that the alien is of investigative interest, the alien 
may be subjected to further investigation by the FBI or Immigration and 
Customs Enforcement's (ICE) Office of Investigations pending further 
investigation.
    Section 287 of the Immigration and Naturalization Act, Title 8, 18, 
19 and 21 all give fairly broad statutory authority for Border Patrol 
Agents to arrest, detain and investigate illegal activity. For example, 
all Border Patrol Agents are specifically authorized to conduct 
investigative stops, either from roving patrol or pedestrian 
interviews, and must diligently pursue lawful ``investigative 
activities'' likely to promptly resolve questions as to immigration 
status or ``criminal activity''. These authorities are explained and 
delineated in the Border Patrol Handbook and other sources. Again, 
Policy requires Officers and Agents to immediately notify the CBP 
National Targeting Center (NTC), the centralized coordination point for 
all of CBP's anti-terrorism efforts, and the Federal Bureau of 
Investigation's (FBI) Joint Terrorism Task Force (JTTF). The NTC 
conducts a full vetting to include notification to other agencies, as 
required, to further identify any possible threat or connection to 
terrorism.

    Question 5.: The GAO report says that the Department has 
``generally not achieved'' the improvement and enhancement of public/
private information sharing involving attacks, threats, and 
vulnerabilities.
    Please list how many private sector entities are linked to HSIN (or 
its related systems), whether this linkage has been done through the 
Sector Partnership Framework, and how many members of State and local 
governments have access.
    Please describe your successes and difficulties in these areas.
    Response:
HSIN-CS User Numbers (approximate count)

------------------------------------------------------------------------------------------------------------------------------------------------
Private                           648 organizations (1,278 individuals)
 Sector
 Organization
 s
------------------------------------------------------------------------
Educational                            16 institutions (19 individuals)
 Institutions
------------------------------------------------------------------------
State/Local/                             117 entities (186 individuals)
 Tribal
 Members
------------------------------------------------------------------------
Federal                                   90 entities (299 individuals)
 Partners
 (non-DHS)
------------------------------------------------------------------------
DHS Employees          200--250 individuals (NOTE: This is a very rough
               estimate. It includes 180 on the National Infrastructure
                 Coordinating Center Tactical Portal, plus an estimated
                50+ from the Transportation Security Administration, US
                                                     Coast Guard, etc.)
------------------------------------------------------------------------

    The Sector Partnership Framework provides the governance and 
coordination for the Homeland Security Information Network Critical 
Sector (HSIN-CS). Many of the sectors, through their Sector 
Coordinating Councils (SCCs) and Government Coordinating Councils 
(GCCs), have working groups that develop functional requirements for 
HSIN-CS and determine content, portal appearance, and governance for 
their participation in HSIN-CS. This approach ensures that HSIN-CS is 
an efficient and effective tool that fits into each sector's business 
processes, culture, and policy framework.
    Such an approach is intended to ensure coordination and 
communication in an all-hazards environment; it also affords 
sustainable information exchange within the sector and across sectors 
for the long term. The Critical Infrastructure and Key Resources (CI-
KR) sector partnership provides the nexus for private-sector 
participation on HSIN-CS.
    We have had a number of successes in our outreach efforts to the 
private-sector owners/operators for HSIN-CS. Each sector now has a 
portal in pilot status on HSIN-CS. We are working with the sectors to 
create a business case that provides the owners/operators (the Nuclear, 
Oil & Natural Gas and Chemical sectors, for example) with a compelling 
reason to share information. Also, the sectors, led by the SCC/GCC, are 
developing their own governance and membership criteria for HSIN-CS; in 
this way, the sectors have a vested interest in building a trusted 
environment and fostering its successful execution. Finally, we have 
established HSIN-CS as a key distribution medium for the Department of 
Homeland Security (DHS) to share reports, threats, and analysis with 
the private-sector owners/operators. For two years, for example, DHS 
has made regionally based hurricane impact models available on the 
HSIN-CS portals for use by the sectors in preparing for the hurricane 
season. Nine sectors have signed Memorandums of Understanding with DHS 
to move out of the pilot stage and expand the use of their portals to 
the entire sector.
    We are in the process of acquiring a new technical platform that 
will overcome the limitations of the current HSIN in supporting sector 
annual reports, broadcast alerts, key functionalities, and various 
private-sector core requirements. Several sectors are limiting their 
participation pending the move to a new platform, once identified. The 
GAO report did note, however, that progress had been made on the 
information-sharing front overall for the CI-KR sectors.

    Question 6.: During the intelligence subcommittee's May 2007 
hearing on the Homeland Security Information Network (HSIN), Mr. Wayne 
Parent said that the Department would be taking steps to ensure that 
the Homeland Security Information Network (HSIN) is staying aligned 
with the efforts and recommendations of the Program Manager of the 
Information Sharing Environment.
    What steps has the Department taken, and what specific 
recommendations has the Program Manager made to the Department in that 
regard?
    How are you implementing any such recommendations by the Program 
Manager?
    Response: The Department of Homeland Security (DHS) has taken steps 
to ensure that HSIN is aligned with the efforts and recommendations of 
the Program Manager for Information Sharing Environment (PM-ISE). DHS 
established an Information Sharing Coordinating Council (ISCC) which is 
comprised of representatives from across the DHS components and chaired 
by the Office of Intelligence and Analysis's Information Sharing and 
Collaboration Office. The DHS/ISCC is chartered to review and 
coordinate recommendations from the PM-ISE. The Office of Operations 
Coordination has a representative on this council and coordinates 
applicable efforts and recommendations with the HSIN Joint Program 
Office.
    The PM-ISE has drafted an Enterprise Architecture Framework (EAF) 
that will enable the sharing and searching of terrorism information 
across jurisdictional boundaries. The ISE EAF includes the concept of 
an ISE Shared Space. The Shared Space is an area to be used by 
participating agencies to place shareable services and data in a manner 
that is readily accessible and ensures appropriate security. At a 
concept level, this definition gives DHS the opportunity to further 
articulate the mechanics of its own Shared Space. DHS has begun the 
process of defining how it will implement the concept of the Shared 
Space in anticipation of a final recommendation from the PM-ISE. HSIN 
is an integral part of enabling the ISE Shared Space concept.

    Question 7.: GAO concluded that DHS has generally not achieved 
performance expectation number 16: Develop a long range vessel-tracking 
system to improve maritime domain awareness. GAO bases its conclusion 
on that fact that after Congress first gave the US Coast Guard the 
authority to develop long range vessel tracking capabilities over four 
years ago in the Maritime Transportation Security Act of 2002 [MTSA] 
(Public Law 107-295), DHS does not have a long range vessel tracking 
system that can provide coverage up to nautical 2,000 miles from the US 
coast.
    I understand that the maritime industry, specifically the Maritime 
Information Service of North America (MISNA), which is a non-profit US 
maritime organization, has developed a long range vessel tracking 
system that can not only provide coverage up to nautical 2,000 miles 
from the US coast, but around the world. Are you aware of this system? 
I understand that MISNA believes it would compliment the system being 
developed by the IMO, and would provide more benefits to the U.S. than 
the IMO system will.
    Response: Yes, the Coast Guard is aware of the Maritime Information 
Service of North America (MISNA) system. MISNA, like other commercially 
available systems, provides global tracking of vessels as a corporate 
service. Unlike the compulsory International Maritime Organization 
(IMO) Long Range Information Tracking (LRIT) system which will track 
all Safety of Life at Sea (SOLAS) vessels, the long range MISNA system 
is voluntary and is limited to tracking only MISNA subscribers.

    Question 8: The Coast Guard's lack of progress on developing long 
range vessel tracking capabilities is especially troubling given that 
the SAFE Port Act mandated that DHS would have a long range vessel 
tracking system by April 1 of this year. When the Coast Guard was asked 
about this, their response was that they have access to sufficient data 
right now, but that the problem is that once the data has been 
gathered, they do not know how to display it and share it with those 
who need it. It seems that GAO came to the same conclusion. 
Specifically, GAO notes that while DHS has reported that the Coast 
Guard has vessel-tracking capabilities, but noted that work is needed 
in the processing, display, and training in the use of this 
information.
    If DHS is not able to process or display the information it has, 
nor does it have the capability to train anyone in the use of this 
information, what good does it do to have the information in the first 
place? All the information in the world will not stop a terrorist 
attack if that information is not actionable. And it certainly will not 
help DHS to manage risk in the maritime environment.
    Response: The Coast Guard met the April 1, 2007, tracking 
requirement of the SAFE Port Act using a full range of classified and 
unclassified means. This multi-faceted range of vessel tracking sources 
provides both complementary and confirmatory information used to 
improve Maritime Domain Awareness (MDA). MDA is achieved through a 
combination of established training programs, data fusion & analysis 
tools, Department of Defense-compliant display systems including Coast 
Guard-wide distributed classified and unclassified Common Operational 
Pictures, and sharing of vessel tracking information with Customs and 
Border Protection and other port partners. Ongoing efforts continue to 
improve the efficiency and performance of these existing Coast Guard 
capabilities and information systems.

    Question 9.: Sec. 404 of the Coast Guard and Maritime 
Transportation Act of 2006 (Public Law 109-241) authorized DHS to 
conduct a pilot program for long-range tracking of up to 2,000 vessels 
using satellite systems with a nonprofit maritime organization that has 
a demonstrated capability of operating a variety of satellite 
communications systems providing data to vessel tracking software and 
hardware that provides long-range vessel information to the Coast Guard 
to aid maritime security and response to maritime emergencies.
    Given DHS's lack of progress on developing long range vessel 
tracking capabilities over the past four years, combined with the fact 
that MISNA has had these capabilities for that entire time, and keeping 
in mind that MISNA's system will provide some capabilities that IMO's 
system will not and that IMO's system will not be fully functional for 
some time, do you think it would be prudent for Congress to appropriate 
funds to get this pilot project up and running, and for the Coast Guard 
to work with the maritime industry to achieve long range vessel 
tracking capabilities?
    Response: The Maritime Information Service of North America 
(MISNA), like other commercially available systems, provides global 
tracking of vessels as a corporate service. Unlike the compulsory 
International Maritime Organization (IMO) Long Range Information 
Tracking (LRIT) system which will track all Safety of Life at Sea 
(SOLAS) vessels, the long range MISNA system is voluntary and is 
limited to tracking only MISNA subscribers. We do not seek funding for 
a pilot project for MISNA.
    The United States Government has led the effort for the past four 
years to implement LRIT as an international standard system. Progress 
toward implementing a compulsory, international long range tracking 
system through the IMO depends upon international participation and 
cooperation. The Coast Guard will be working with the maritime 
industry, our international partners and commercially available systems 
to receive long range tracking information when LRIT is deployed as 
planned in 2008. An NPRM on LRIT was published by the Coast Guard in 
October 2007 and a U.S. National Data Center for LRIT is planned to be 
in operation by the summer of 2008.

    Question 10.: According to the GAO's report, overall progress on 
Border Security was Modest, Immigration enforcement was Moderate, and 
Immigration services was Modest. Can you elaborate on why these figures 
appear so low and what DHS is currently doing to improve them?
    Response: As discussed in the Department's response to the GAO 
report, we disagree with the methodology used by GAO to score the 
Department. We also disagree with GAO's overall scores in the specific 
areas of Border Security, Immigration Enforcement, and Immigration 
Services.
    The Department has, over the past four years, implemented several 
initiatives and strategies with the overall goal of gaining effective 
control of our Nation's borders. More importantly, our results 
demonstrate a success that is clearly higher than ``Modest''.
    The Department has developed a comprehensive National Strategy to 
gain and maintain operational control of our borders, between the ports 
of entry, with the appropriate mixture of staffing, technology and 
tactical infrastructure. This strategy was implemented in Fiscal Year 
(FY) 2005 and complements the strategy for securing our Nation's 
borders at the ports of entry as well as the DHS' Secure Border 
Initiative (SBI). SBI is a comprehensive multi-year plan to secure 
America's borders and reduce illegal migration by gaining effective 
control of the borders and strengthening interior enforcement and 
compliance. The goals are interdependent and must be addressed 
simultaneously and collectively in order to achieve significant gains 
in border security. This is partially achieved by increasing the rate 
of interception and removal, therefore increasing the rate of 
deterrence.
    While GAO did not assess deterrence as a performance measure, the 
Department believes it is a vital part of the National Strategy and 
implemented several initiatives aimed at deterrence. For example, DHS 
expanded the use of Expedited Removal to Border Patrol apprehensions 
between the ports of entry, and has since ended the practice of catch 
and release. Combined with targeted enforcement efforts such as 
Operation Streamline in the Del Rio Sector, the addition of more Border 
Patrol Agents, tactical infrastructure and technology such as ground 
based radar in other sectors, additional deterrence to illegal cross 
border activity was achieved.
    The significant gains made in border miles under effective control 
are mostly attributable to the significant numbers of new Border Patrol 
Agents hired and deployed to the southwest border during fiscal year 
2006 and fiscal year 2007 and Operation Jump Start (OJS). The new 
Border Patrol Agents added will become more effective in the 
performance of their duties as they continue to develop their law 
enforcement skills through post academy and on the job training. The 
number of support personnel hired was also increased commensurate with 
the hiring of additional Border Patrol Agents which has sent ``badges 
back to the border'' and increased our presence and ability to deter 
and apprehend border incursions.
    Along with the permanent personnel enhancements, increased targeted 
enforcement operations and implementation of long term initiatives, the 
Border Patrol's southwest border sectors also received augmentation by 
National Guard troops participating in OJS. The most noteworthy support 
provided by OJS National Guard troops was through the deployment of 
Entry Identification Teams (EITs). These EITs provided additional 
detection capability and deterrence in areas with limited monitoring 
capabilities. This brought additional miles of the border under 
surveillance and allowed the Border Patrol Agents to more effectively 
respond to illegal entries. Additionally, the National Guard supported 
the Border Patrol mission in several other ways, by repairing patrol 
roads, providing fleet maintenance support, operating radios and 
cameras and performing other non-law enforcement activities. This 
allowed hundreds of Border Patrol Agents, performing non-law 
enforcement missions, to return to their law enforcement duties and 
place them back on the border.
    Additionally, in fiscal year 2007, over 600,000 hours for CBP 
Officers and Border Patrol Agents were freed up through the use of a 
``guard and transportation'' services contract that will continue in 
fiscal year 2008. This contract allows CBP Officers and Border Patrol 
Agents to focus on their primary law enforcement duties instead of 
spending time transporting and guarding apprehended aliens.
    The results were and continue to be decreased apprehensions and 
increased amounts marijuana and cocaine seized between the ports of 
entry by Border Patrol Agents. At the end of fiscal year 2006, border 
security efforts resulted in an eight percent decrease in overall 
apprehensions and a 13 percent increase in the amount of marijuana 
seized and an eight percent increase in the amount of cocaine seized 
compared to fiscal year 2005 figures. Efforts in fiscal year 2007 
resulted in a 20 percent decrease in overall apprehensions and a 36 
percent increase in the amount of marijuana seized and an 11 percent 
increase in the amount of cocaine seized compared to fiscal year 2006 
figures.
    Achievement at the border is the result of the continued 
application of the Border Patrol's multi-year strategy to deploy the 
right mix of highly trained and well-equipped personnel, strategically 
placed tactical infrastructure and integrated technology to secure our 
borders. The goal of this strategy is to ensure that the Border Patrol 
can consistently detect, identify and classify, respond to and resolve 
all illegal entries between the ports of entry while maintaining 
mobility for rapid deployment to counter shifts in illegal cross border 
activity.
    In regards to Immigration Enforcement, it is apparent that the GAO 
failed to adequately assess several of the ICE programs that touched 
upon the performance expectations highlighted in the report.
    For example, in an effort to ensure timely identification and 
removal of aliens subject to removal from the U.S., ICE has acquired 
additional aircraft, increased the use of the Electronic Travel 
Document system that meaningfully shortens processing and detention 
times, and increased the use of Video Teleconferencing for consular 
interviews, thereby reducing interview scheduling and travel delays.
    It is also important to note that decisions by foreign countries to 
refuse or delay in the issuance of travel documents are not within 
ICE's control. In many instances, there is little incentive for some 
countries to repatriate their citizens, nearly all of whom contested 
removal to their nation and some of whom are criminals. Many countries 
extensively delay or outright refuse the issuance of travel documents 
for the return of their nationals, even when presented with conclusive 
identity information and passports. However, ICE continues to encourage 
non-cooperating countries to issue travel documents. Some efforts 
include, stationing a full-time ICE Liaison Officer at the Department 
of State to foster better foreign relations, expanding e-Ticketing to 
those countries who receive the highest number of repatriated aliens, 
and facilitating consular interviews.
    Furthermore, the length of removal proceedings conducted by 
agencies within the Department of Justice or the federal courts is 
outside of ICE control. Aliens are entitled to present their cases to 
an immigration judge, appeal, and seek further review in the federal 
courts. In some jurisdictions, the removal of aliens is judicially 
stayed--or enjoined--by federal court order upon the alien's request. 
The GAO did not take into consideration the number of aliens in ICE 
detention whose detention is prolonged by their litigation choices and 
rulings by courts.
    ICE has also made extensive progress in ensuring the removal of 
criminal aliens and absconders through its Criminal Alien Program 
(CAP). ICE would like to note that the CAP maintains a presence in 
approximately 2000 federal, state, and local correctional institutions 
and jails, including 114 Bureau of Prisons federal detention 
facilities. Furthermore, ICE continues to train and hire nearly 200 
additional staff to support CAP, is expanding video-teleconferencing 
technology to field offices, and continues to expand coverage to state 
and local jails and prisons. Additionally, CAP is on course to double 
the number of aliens placed in removal proceedings by issuance of 
charging documents in 2007.
    In addition to the CAP program, ICE has also successfully developed 
and implemented a robust worksite enforcement program which actively 
targets employers who hire unauthorized workers. ICE uses a two-fold 
system that entails a comprehensive risk assessment of its mission-
critical areas, as well as the use of standard law enforcement 
statistics to measure the overall effectiveness of its investigations. 
The worksite enforcement program continues to mature and will be 
developed into an outcome based system.
    Lastly, ICE has also made great strides to interdict and prevent 
trafficking and smuggling of aliens into the U.S. ICE utilizes Border 
Enforcement Task Forces (BEST), which were created to combat border 
crime and violence, and also maintains an active and aggressive 
domestic and overseas human trafficking program--ICETIPS--to target 
criminal organizations and individuals engaged in human trafficking 
worldwide.

    Question 11.: Responsibility for securing the maritime 
transportation system falls to the Coast Guard, Customs and Border 
Protection, the Domestic Nuclear Detection Office, the Transportation 
Security Administration, other Federal, State, and local agencies, 
foreign partners, and the private sector. The scope is enormous and 
includes 300 plus domestic seaports, 12 million maritime containers, 
and hundreds of vessels. With all of these stakeholders and missions, 
it seems that this category would see the least amount of progress but 
the opposite is true.
    What makes maritime security different?
    Is it a priority for the Department and therefore more resources 
and attention were given to this area than Immigration enforcement?
    Response: Ensuring the security of the maritime transportation 
system continues to be a priority for the Department of Homeland 
Security (DHS). An efficient maritime transportation system is vital to 
the global economy, but it can also be used to move dangerous cargo or 
people to our ports and cities. Almost 32,000 seagoing containers 
arrive and are off loaded at United States seaports each day. In fiscal 
year 2006, that equated to 11.6 million cargo containers annually. 
Because of the sheer volume of sea container traffic and the 
opportunities it presents for terrorists, containerized shipping is 
uniquely vulnerable to terrorist exploitation.
    DHS is proud of the strides made over the last several years to 
strengthen the security of the maritime transportation system while 
facilitating the flow of legitimate travel and trade. As you observed, 
the scope of this mission is enormous and responsibilities are shared 
between a variety of both federal and private stakeholders. Our 
progress in the maritime realm has been aided by a number of unique and 
important factors.
    The maritime domain has a tradition of partnerships between 
stakeholders, especially between the U.S. Customs and Border Protection 
(CBP), the U.S. Coast Guard (USCG), maritime industry partners and 
others in the private sector. These established relationships enabled 
the Department to rapidly identify security gaps and solutions and then 
work aggressively to implement realistic mitigation programs and 
strategies. As an example, the implementation of the Maritime 
Transportation Security Act of 2002 included the establishment of Area 
Maritime Security Committees (AMSCs) and development of Area Maritime 
Security Plans. Both programs were implemented under tight deadlines 
driven by the date the International Maritime Organizations 
International Ship and Port Facility Security Code (ISPS Code) entered 
into force. The existing partnerships between Federal, State, and local 
agencies and the maritime/port industries, such as the Harbor Safety 
Committees, ensured that the stakeholders had pre-existing partnerships 
and were rapidly able to transition into AMSCs. Other supply chain 
security programs whose success is predicated on strong international 
and industry partnerships include the Secure Freight Initiative (a 
joint program between DHS and the Department of Energy) the Container 
Security Initiative, and the USCGs inspection teams.
    Another significant factor contributing to the progress in the 
maritime domain is that the federal government has traditionally 
maintained primary oversight authority in the maritime realm. Navigable 
waterways and port areas fall clearly within the purview of specific 
federal agencies, such as the USCG, which has direct jurisdiction over 
all U.S. navigable waterways, or CBP which has jurisdiction over cargo 
crossing a border. The clarity and centrality of this federal authority 
has significantly expedited development of security regimes and 
domains. While the partnerships noted above have been crucial, the 
centrality of jurisdiction has also helped ensure that rapid progress 
was possible.

    Question 12.: Although Congress passed a bill to implement 
remaining recommendations of the 9/11 Commission, the bill failed to 
implement the recommendation for Congress to reorganize itself to 
consolidate its jurisdiction over DHS. In an op-ed in the Washington 
Post on September 9th, the 9/11 Commission's former chairman, Thomas H. 
Kean, and former vice chairman, Lee H. Hamilton, noted that this is one 
of the--quote--``main items on our list of concerns.''
    What recommendations do you have to streamline this process?

        a. Could you please provide some examples of how the lack of 
        consolidated congressional oversight impacts DHS?
    Response: The Department of Homeland Security (DHS) is currently 
subject to oversight by at least 86 Congressional committees and 
subcommittees. This level of Congressional attention creates a uniquely 
difficult and unnecessary burden for DHS and it negatively impacts the 
Department's ability to fulfill its mission. Literally thousands of 
Congressional requests--from many different committees and 
subcommittees, for hearings, briefings, reports, and other 
information--consume a significant amount of DHS senior leadership 
time, which must be balanced with meeting operational mission demands. 
A list of the committees and subcommittees who have asserted 
jurisdiction over some aspect of DHS operations during the 110th and 
109th Congresses is attached.
    In 2006 alone, DHS testified at more than 200 Congressional 
hearings, responded to more than 3,700 follow-up questions for the 
record, provided approximately 2,200 briefings for members and their 
staffs, and prepared more than 370 authorization and appropriation 
reports for Congress. These figures reflect more than a 25-percent 
increase in the number of hearings and briefings required of DHS 
between 2004 and 2006.
    Unfortunately, the problem appears to be getting worse rather than 
better, and the burden is becoming increasingly onerous. So far in 
2007, the Department is on pace to exceed the 2006 figures. Already, in 
the 110th Congress (as of September 14, 2007), DHS witnesses testified 
at over 166 hearings with 228 witnesses, responded to more than 2,600 
follow-up questions for the record, provided approximately 1,949 
briefings for members and staff, and prepared more than 460 reports for 
Congress. In August 2007 alone, two requests from one committee in the 
House (other than the Committee on Homeland Security) have consumed 
many hundreds of staff hours, and boxes of documentation have been 
demanded and supplied.
    In addition to the sheer burden associated with responding to the 
thousands of oversight requests directed at the Department, the large 
number of committees and subcommittees claiming jurisdiction frequently 
results in duplicative requests to the Department. We often find 
ourselves providing briefings or testimony to multiple committees on a 
range of identical or closely related matters. For example, DHS 
witnesses have testified, to date, at least five times on the issue of 
post-Hurricane Katrina housing in the 110th Congress. Further, DHS 
witnesses have testified before five different committees and 
subcommittees on worksite enforcement, and seven different times on the 
issue of border security.
    We understand that there is a high level of interest in many of our 
programs and operations and recognize Congress' important oversight 
role; however, the time and effort involved in responding to the vast--
and sometimes duplicative--requests has had a significant impact on the 
ability of the Department to perform our mission.

        b. What recommendations do you have to streamline this process?
    Response: One of the most important steps Congress can undertake to 
improve operational effectiveness at DHS is to streamline Congressional 
oversight over our Department. This action would allow DHS to focus our 
time and resources much more effectively on our critical missions, 
while preserving appropriate levels of Congressional oversight. [See 
Appendix I.]
    This view is in line with a key recommendation of the 9/11 
Commission which was to create a single, principal point of oversight 
and review for homeland security. The Commission stated that:
        Congress should create a single, principal point of oversight 
        and review for homeland security. Congressional leaders are 
        best able to judge what committee should have jurisdiction over 
        this department and its duties. But we believe that Congress 
        does have the obligation to choose one in the House and one in 
        the Senate, and that this committee should be a permanent 
        standing committee with a nonpartisan staff.
    The Department of Homeland Security strongly supports this 
recommendation and the Administration has repeatedly expressed its 
strong conviction that Congress should adopt this recommendation. As 
discussed in the previous answer, the lack of a single, principal point 
of oversight and review has led to a number of committees exercising 
oversight, requesting information, and holding hearings. The Department 
welcomes oversight and is more than willing to engage with members of 
Congress on important homeland security issues. However, this must be 
done in an organized a way that avoids redundant requests and oversight 
efforts, and allows Departmental leaders to engage in full and 
efficient dialogue with members of Congress.
    We urge Congress to implement this vital reform.

           Questions From the Committee on Homeland Security

              Responses From the Honorable David M. Walker

    Question 1.: Since 2003, the Department has committed roughly $250 
million to develop an exit capability for US-VISIT, yet we still do not 
have a functioning biometric exit system. In June, GAO testified before 
the Committee that the prospects for having operational exit 
capabilities continued to be unclear because of the absence of any 
detailed plans.
    a. Can you speak about the US-VISIT exit plans GAO has reviewed, or 
lack thereof, and why you believe the Department's newly launched 
efforts to deliver an air and sea exit solution will not produce 
results different from its past efforts?
    Response: DHS has issued a high-level schedule for an exit 
capability at air ports of entry, but information supporting that 
schedule was not available as of June 2007. In addition, there are no 
other exit program plans available that define what will be done, by 
what entities, and at what cost in order to define, acquire, deliver, 
deploy, and operate this capability. The fiscal year 2007 US-VISIT 
expenditure plan did not include a complete schedule for biometric exit 
implementation, and the US-VISIT program office has yet to develop a 
business case for implementing a planned project for biometric exit 
capability at air ports of entry. Further, DHS has not performed an 
analysis comparing the life cycle costs of the air exit solution to its 
expected benefits and risks.
    The US-VISIT program first committed to full deployment of a 
biometric exit capability in 2003, and it has continued to make similar 
deployment commitments in subsequent years. At the same time, we have 
chronicled a pattern of inadequate analysis surrounding the expected 
costs, benefits, and risks of these exit efforts since 2004, and thus 
an absence of reliable information upon which to view their expected 
value and base informed exit-related investment decisions. US-VISIT has 
allocated about $250 million in funding to exit pilot programs. At no 
time, however, was any analysis produced to justify such a sizeable 
investment. While we recognize the value and role of demonstration and 
pilot efforts as a means for learning and informing future development 
efforts, we believe that exit-related efforts have been inadequately 
defined and justified over the last 4 years, and it is unclear whether 
DHS's new efforts will produce different results from past efforts.

    Questions 2.: Throughout your review, how was the NIPP evaluated?
        a. Were you considering coordinated objectives that should have 
        been accomplished by the NIPP in coordination with Sector and 
        Government Coordinating Councils?
        b. If so, then please list concrete examples that contributed 
        to your overall analysis.
    Response: We based our review of the NIPP on prior GAO work. We 
previously reported that the NIPP is a base plan that is to serve as a 
road map for how DHS and other relevant stakeholders should use risk 
management principles to prioritize protection activities within and 
across sectors in an integrated, coordinated fashion. HSPD-7 required 
DHS to develop a comprehensive and integrated plan by December 2004 
that outlines national protection goals, objectives, milestones, and 
key initiatives necessary to fulfilling these responsibilities. DHS 
issued the NIPP in June 2006.
    To better coordinate infrastructure protection efforts as called 
for in the NIPP, all 17 critical infrastructure sectors have 
established their respective government councils, and nearly all 
sectors have initiated their voluntary private sector councils. But 
council progress has varied due to their characteristics and level of 
maturity. Further, the NIPP required the individual sector-specific 
agencies, working with relevant government and private sector 
representatives, to submit plans to DHS that would establish the means 
by which the sectors will identify their critical assets, assess risks 
of terrorist attacks or other hazards on them, assess and prioritize 
those which have national significance, and develop protective measures 
for the sector. DHS is to use these individual plans to evaluate 
whether any gaps exist in the protection of critical infrastructures on 
a national level and, if so, to work with the sectors to address the 
gaps. We reported that all the sectors met the December 2006 deadline 
to submit their sector-specific plans to DHS, although the level of 
collaboration between the sector and government councils on the plans 
varied by sector. In May 2007, DHS announced the completion of the 17 
sector-specific plans. However, issuing the NIPP and completing sector 
plans are only first steps to ensure critical infrastructure protection 
investments and activities are prioritized based on risk management 
principles.
    We recently reported that the extent to which the sectors addressed 
aspects of cyber security in their sector-specific plans varied. None 
of the plans fully addressed all 30 cyber security-related criteria. 
Several sector plans--including the information technology and 
telecommunications sectors--fully addressed many of the criteria, while 
others--such as agriculture and food and commercial facilities--were 
less comprehensive. In addition to the variations in the extent to 
which the plans covered aspects of cyber security, there was also 
variance among the plans in the extent to which certain criteria were 
addressed. DHS acknowledges the shortcomings in the plans. DHS 
officials stated that the sector-specific plans represent only the 
early efforts by the sectors to develop their respective plans. 
Nevertheless, until the plans fully address key cyber elements, certain 
sectors may not be prepared to respond to a cyber attack against our 
nation's critical infrastructure.

    3. In your report, you give the Department a ``generally achieved'' 
status for developing partnerships and coordinating with other federal 
agencies, state and local governments and the private sector. Please 
describe in detail a partnership and coordination effort that was 
``generally achieved'' by the Department?
    Response: DHS has taken steps to develop partnerships and 
coordinate with other federal agencies, state and local governments, 
and the private sector. For example, DHS is responsible for the 
formation of government and private sector councils to, among other 
things, identify their most critical assets and identify protective 
measures in sector-specific plans. In October 2006 we reported that all 
17 critical infrastructure sectors established their respective 
government councils, and nearly all sectors initiated their voluntary 
private sector councils in response to the National Infrastructure 
Protection Plan.
    In addition, DHS has undertaken numerous initiatives to foster 
partnerships with other federal agencies, state and local governments, 
and the private sector about cyber attacks, threats, and 
vulnerabilities. For example, the National Cyber Response and 
Coordination Group facilitates coordination of intragovernmental and 
public/private preparedness and operations in order to respond to and 
recover from incidents that have significant cyber consequences and 
also brings together officials from national security, law enforcement, 
defense, intelligence, and other government agencies that maintain 
significant cybersecurity responsibilities and capabilities. Further, 
sectors stated that the Critical Infrastructure Protection Advisory 
Council will give them an effective way to share information about and 
coordinate their protection efforts since the council proceedings are 
not subject to public disclosure, thus protecting sensitive business 
information from competitors.

    4. Mr. Walker, you identified numerous problems with the 
Department's recruitment, retention, and management of its personnel. 
Can you tell us what you think are the top three problems, and what you 
think are the short and long term solutions to address them?
    Response: Some of the most pressing human capital challenges at DHS 
include successfully completing its ongoing transformation; forging a 
unified results-oriented culture across the department; linking daily 
operations to strategic outcomes; rewarding individuals based on 
individual, team, unit, and organizational results; and obtaining, 
developing, providing incentives to, and retaining needed talent. 
Moreover, employee satisfaction with their involvement in 
decisionmaking and feelings of empowerment are low, as measured by 
results in the 2006 Federal Human Capital Survey.
    Given the strategic importance of human capital management to the 
success of DHS, finding cost-effective, feasible long-term solutions is 
the most appropriate management approach. DHS needs to continue its 
efforts to
        <bullet> link organizational goals to individual performance
        <bullet> use competencies to provide a fuller assessment of 
        performance
        <bullet> make meaningful distinctions in employee performance
        <bullet> continue to incorporate adequate safeguards to ensure 
        fairness and guard against abuses
        <bullet> involve employees in important decisions such as how 
        they are deployed and how work is assigned
    We have also made recommendations to specific program offices and 
organizational entities to help ensure that human capital resources are 
provided to improve the effectiveness of management capabilities and 
that human capital plans are developed that clearly describe how these 
components will recruit, train, and retain staff to meet their growing 
demands as they expand and implement new program elements.

    Question 5.: Mr. Walker, in the report you cite that DHS reported 
to you as of March 2007 that it was scanning 91 percent of 
containerized cargo entering the United States by land or sea ports of 
entry. This Committee has also been provided with similar, although 
more detailed information about scanning cargo for radiation. For that 
performance expectation, which was number 4: ``Coordinate deployment of 
nuclear, biological, chemical, and radiological detection capabilities 
and other countermeasures'' under the Science and Technology section, 
the GAO Assessment was ``Generally not achieved.''
        a. Do you believe the Department is in fact scanning less than 
        91 percent of containerized cargo entering the U.S.? If so, 
        what is your basis for that assessment?
    Response: DHS has made progress in deploying radiation detection 
equipment at US sea ports. We do not disagree with the Department's 
statement that it is screening 91 percent of containerized cargo 
entering the country, but that screening is only to detect nuclear and 
radiological materials. We concluded that DHS has generally not 
achieved the performance expectation to ``Coordinate deployment of 
nuclear, biological, chemical, and radiological detection capabilities 
and other countermeasures'' because there is no comparable activity for 
biological and chemical detection. DHS did not provide us with 
documentation on its effort to coordinate the deployment of 
countermeasures beyond radiation detection capabilities at ports of 
entry and monitoring of aerosol-based attacks. In addition, until DHS 
more completes its threat assessments across all sectors, DHS may not 
fully now what technologies or countermeasures are needed to address 
identified threats and vulnerabilities.

    Question 6.: Mr. Walker, in the S&T section of the report, nuclear, 
radiological, biological, and chemical detection are all somewhat 
grouped together.
        a. Can you compare among them for us, and tell us your opinion 
        of the maturity of the rad/nuke, biological and chemical 
        detection technologies respectively?
        b. Because rad/nuke detection has moved out of the S&T 
        directorate and is now within the Domestic Nuclear Detection 
        Office, can you compare and contrast the process and efficacy 
        for threat assessment, RDT&E, and where applicable, technology 
        deployment between S&T and DNDO?
        c. Are the two directorates cooperating or coordinating?
    Response: DHS has developed and deployed equipment at ports of 
entry for detection of radiological and nuclear materials entering the 
United States. The department has also developed and deployed 
technologies to detect possible biological and chemical agents in the 
air. However, we have not evaluated or compared the maturity of these 
detection capabilities. Moreover, we have not compared and contrasted 
the assessment and deployment processes used by the Science and 
Technology Directorate and the Domestic Nuclear Detection Office. We 
also have not reviewed the extent to which the Science and Technology 
Directorate and the Domestic Nuclear Detection Office coordinate their 
efforts.

    Question 7.: Mr. Walker, in the first performance expectation for 
the S&T directorate: ``Develop a plan for departmental research, 
development, testing and evaluation activities,'' you note several 
reports put out by the Department and that each report seems to do well 
in some area and fails in others. For example, the report states that 
``The Science and Technology Directorate Strategic Plan and associated 
Five-Year Research [and] Development Plan provide information on 
deliverables and milestones for fiscal years 2007 through 2011. 
However, these plans do not include goals and measures for the 
department's science and technology activities. In addition, according 
to the department, these plans do not address the requirement in the 
Homeland Security Act of 2002 for the department to develop a national 
policy and strategic plan for identifying priorities, goals, objectives 
and policies for, and coordinating the federal government's civilian 
efforts to identify and develop countermeasures to chemical, 
biological, and other emerging terrorist threats, upon which the 
performance expectation is, in part, based.''
        a. Can you differentiate between goals, milestones, measures, 
        and deliverables and explain why each need to be included and 
        why the Department included deliverables and milestones but not 
        goals and measures?
    Response: Effective strategic plans contain strategic or long-term 
goals and objectives, including outcome-related goals and objectives, 
for the major functions and operations of the agency. The strategic 
goals constitute a specific set of policy, programmatic, and management 
objectives for the programs and operations covered in the strategic 
plan, and serve as a framework from which the annual performance goals 
are derived. Strategic goals explain what results are expected from the 
agency's major functions and when to expect those results. Such goals 
are an outgrowth of the mission and are very often results-oriented. 
Strategic plans should indicate how progress toward achieving strategic 
goals will be measured. Effective strategic plans should also show an 
obvious link between strategic goals and the specific actions or 
deliverables that will be needed to meet those goals. These actions or 
deliverables, in turn, should be clearly linked to milestones 
describing when such actions will take place. We provide an explanation 
of each term below:
        <bullet> Strategic Goal: A statement of aim or purpose that 
        defines how an agency will carry out a major segment of its 
        mission over a period of time. Most strategic goals will be 
        outcomes, and are long-term in nature. The strategic goal is 
        expressed in a manner which allows a future assessment to be 
        made of whether the goal was or is being achieved.
        <bullet> Performance Goal: Sets a target level of performance 
        over time expressed as a tangible, measurable objective, 
        against which actual achievement can be compared, including a 
        goal expressed as a quantitative standard, value or rate. A 
        performance goal is comprised of a performance measure with 
        targets and timeframes.
        <bullet> Performance Measure: An indicator, statistic or metric 
        used to gauge program performance against goals.
        <bullet> Milestones: A schedule of significant actions that 
        need to take place to achieve the goals in a strategic plan.
        <bullet> Deliverables: Products or services to be provided as 
        specified in a contract or plan.

    Questions 8.: Mr. Walker, you considered the assessment of emerging 
CBRN threats to generally not achieved. Last year, as you note in your 
report, DHS S&T completed a risk assessment of 28 biological agents and 
then went on to conduct 14 Material Threat Determinations (MTD) 
required under project BioShield.
        a. Do you consider the risk assessment of the 28 biological 
        agents or the MTDs to be inadequate or sub-par?
        b. What about similar risk assessments for rad/nuke and 
        chemical agents?
    Response: We did not evaluate the quality of risk assessments and 
Material Threat Determinations that have been conducted by DHS. We 
based our assessment of generally not achieved primarily on the fact 
that DHS was in the process of completing assessments in some sectors. 
Our analysis showed that DHS has completed some assessments on 
biological and chemical threats and vulnerabilities. However, at the 
time of our report DHS was still in the process of completing 
assessments in the chemical sector as well as its Integrated Chemical, 
Biological, Radiological, and Nuclear Assessment. Based on our 
analysis, we concluded that DHS's assessments overall appeared to be in 
the early stages.

    Question 9.: Responsibility for securing the maritime 
transportation system falls to the Coast Guard, Customs and Border 
Protection, the Domestic Nuclear Detection Office, the Transportation 
Security Administration, other Federal, State, and local agencies, 
foreign partners, and the private sector. The scope is enormous and 
includes 300 plus domestic seaports, 12 million maritime containers, 
and hundreds of vessels. With all of these stakeholders and missions, 
it seems that this category would see the least amount of progress but 
the opposite is true.
        a. What makes maritime security different?
        b. Is it a priority for the Department and therefore more 
        resources and attention were given to this area than 
        immigration enforcement?
    Response: While our work was not designed to explain why DHS has 
made varying levels of progress in implementing its mission and 
management areas or how the department prioritized among those areas, 
we can provide a few observations on maritime security. The two key 
agencies responsible for the maritime security mission--the Coast Guard 
and U.S. Customs and Border Protection--already had authorities to 
conduct security-related activities. These two agencies had the 
infrastructure in place--such as trained staff, assets like ships and 
aircraft, and a field structure at the ports. These agencies also had 
leadership that moved ahead with various security initiatives, such as 
the Coast Guard creating Area Maritime Security Committees to 
coordinate activities and share information and CBP creating 
partnerships with other countries (through the Container Security 
Initiative) and the private sector (through the Customs-Trade 
Partnership Against Terrorism).

    Question 10.: Would you agree with DHS that the GAO's methodology 
led to ``an inaccurate representation of the Department's progress?''
        a. What do you consider that most significant limitations of 
        the review and your resulting report?
        b. To what extent do you agree or disagree that these 
        limitations impaired the results of you analysis?
        c. Can you briefly respond to the methodological ``flaws'' 
        cited DHS, and does the Department have valid concerns?
    Response: As we acknowledge in our report and testimony, our 
methodology has several limitations. For example, we have completed 
varying degrees of work for each mission and management area, and DHS's 
components and offices provided us with different amounts and types of 
information. As a result, our assessments of DHS's progress in each 
mission and management area reflected the information available for our 
review and analysis and are not equally comprehensive across all 14 
mission and management areas. Further, while there are qualitative 
differences between the performance expectations, we did not weigh some 
more heavily than others in our overall assessments of mission and 
management areas.
    In commenting on a draft of our report, DHS took issues with 
several different aspects of our methodology. For example, DHS believed 
that we altered the criteria we used to judge the department's 
progress. We did not change our criteria; rather we made a change in 
terminology to better convey the intent behind the performance 
expectations that DHS achieve them instead of merely taking actions 
that apply or relate to them. DHS was also concerned about an apparent 
shift in criteria we applied after the department provided us 
additional information and documents. What DHS perceived as a change in 
criteria for certain performance expectations was really the process by 
which we disclosed our preliminary assessment; analyzed additional 
documents and information from DHS; and updated and, in many cases 
revised, our assessments based on the additional inputs. Further, DHS 
raised concerns with consistency in our application of the methodology. 
Our core team of GAO analysts and managers reviewed all inputs from GAO 
staff to ensure consistent application of our methodology, criteria, 
and analytical process, and our quality control process included 
detailed reviews of the report's facts as well as assurances that we 
followed generally accepted government auditing standards. Overall, 
while we appreciate DHS's concerns about our methodology, we recognize 
that in such a broad-based endeavor, some level of disagreement is 
inevitable. We have been as transparent as possible regarding our 
purpose, methodology, and professional judgments and believe that our 
methodology provides a sound basis for assessing DHS's progress.

                                 <all>

</pre></body></html>
